<html>
<title> - THE FUTURE OF FORECASTING: BUILDING A STRONGER U.S. WEATHER ENTERPRISE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                       THE FUTURE OF FORECASTING:
                          BUILDING A STRONGER
                        U.S. WEATHER ENTERPRISE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2019

                               __________

                           Serial No. 116-20

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


       Available via the World Wide Web: http://science.house.gov
       
       
       
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
36-302 PDF            WASHINGTON : 2021        
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    JENNIFFER GONZALEZ-COLON, Puerto 
DON BEYER, Virginia   
Rico
                         C  O  N  T  E  N  T  S

                              May 16, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written statement............................................    12

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    13


                               Witnesses:

Hon. Neil Jacobs, Ph.D., Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, performing the duties 
  of Under Secretary of Commerce for Oceans and Atmosphere, NOAA
    Oral Statement...............................................    15
    Written Statement............................................    17

Dr. Louis Uccellini, Assistant Administrator for Weather Services 
  and Director of the National Weather Service, NOAA
    Oral Statement...............................................    32
    Written Statement............................................    17

Dr. Shuyi Chen, Professor, Department of Atmospheric Sciences, 
  University of Washington
    Oral Statement...............................................    33
    Written Statement............................................    36

Dr. Christopher Fiebrich, Associate Director of the Oklahoma 
  Climatological Survey and Executive Director of the Oklahoma 
  Mesonet
    Oral Statement...............................................    46
    Written Statement............................................    48

Mr. Rich Sorkin, CEO, Jupiter Intelligence
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion.......................................................    71

             Appendix I: Answers to Post-Hearing Questions

Hon. Neil Jacobs, Ph.D., Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, performing the duties 
  of Under Secretary of Commerce for Oceans and Atmosphere, NOAA.    96

Dr. Louis Uccellini, Assistant Administrator for Weather Services 
  and Director of the National Weather Service, NOAA.............    96

Dr. Shuyi Chen, Professor, Department of Atmospheric Sciences, 
  University of Washington.......................................   112

Dr. Christopher Fiebrich, Associate Director of the Oklahoma 
  Climatological Survey and Executive Director of the Oklahoma 
  Mesonet........................................................   116

Mr. Rich Sorkin, CEO, Jupiter Intelligence.......................   123

            Appendix II: Additional Material for the Record

Letter submitted by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   130


                       THE FUTURE OF FORECASTING:

                          BUILDING A STRONGER

                        U.S. WEATHER ENTERPRISE

                              ----------                              


                         THURSDAY, MAY 16, 2019

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time. Good afternoon, and welcome to today's hearing, 
entitled, ``The Future of Forecasting: Building a Stronger U.S. 
Weather Enterprise''. I would like to welcome and thank all of 
our witnesses for being here today to discuss the important 
topic of the U.S. weather enterprise, and how we can leverage 
the partnerships between the sectors to improve U.S. weather 
forecasting and modeling capabilities.
    The U.S. weather enterprise is one of the most robust 
globally, with NOAA (National Oceanic and Atmospheric 
Administration) estimating the value of weather data across all 
industries in the U.S. at approximately $13 billion in 2012. 
This enterprise is built upon open communication and 
collaboration between its public, private, and academic 
sectors. Americans across the country rely on data and services 
NOAA and the National Weather Service (NWS) provide every 
single day. This freely available data serves as the basis of 
many of the consumer-facing weather products we regularly 
interact with, ranging from weather apps on our phones to the 
local forecasts on our TV news. This is a prime example of the 
strong existing partnerships between the public and private 
sectors of the enterprise.
    This freely available data is also the foundation of much 
of the research conducted into the--in the academic sector that 
feeds into operations at the Weather Service. We've spoken in 
this Committee about the increased frequency of severe weather 
events that are impacting every part of the country. In fact, 
NOAA has found that, since 1980, the U.S. has experienced 
almost 250 weather and climate disasters in which the overall 
cost and damages have reached or exceeded $1 billion. A little 
over 2 weeks ago, Dr. Jacobs testified before this Committee on 
the NOAA Fiscal Year 2020 proposed budget, where he informed 
the Committee that the U.S. was not the global leader in 
weather forecasting. This is something that should be of 
concern for all Americans, given the need for accurate 
forecasts due to the wide range of severe weather events we 
experience as a Nation, and the increasing frequency of severe 
weather events due to climate change.
    We've also discussed the need to accelerate research and 
operations at NOAA, but in no place is that more crucial than 
at the Weather Service, as it relates to improving U.S. weather 
models and forecasts. However, NOAA's budget request does not 
reflect this critical need, with more than 40 percent reduction 
in funding for the Office of Oceanic and Atmospheric Research, 
where much of NOAA's internal research is conducted, and 
extramural research is funded. I hope to better understand how 
NOAA and the Weather Service plan to address the significant 
research to operations challenge in light of the priorities 
articulated in this most recent budget request. I'm looking 
forward to this hearing starting the conversation about 
strengthening the enterprise, and I'm pleased to have 
representatives of all three sectors here today.
    While the private sector is perhaps the most diverse of the 
three, we are fortunate to have Mr. Rich Sorkin, CEO of Jupiter 
Intelligence, testifying from the commercial perspective. 
Jupiter provides climate and weather risk analysis based on 
NOAA and other Federal and private sources of data. I would 
also like to welcome Dr. Shuyi Chen, whose research at the 
University of Washington is focused on understanding extreme 
weather events, like hurricanes, and depends on Federal grants 
from agencies like NOAA. With the Atlantic hurricane season 
starting on June 1, I'm glad she's here to answer any questions 
about hurricane forecast improvement.
    I'm also glad to have the opportunity to discuss an issue 
facing the enterprise, particularly NOAA, regarding the 
potential loss of our Nation's valuable weather data from 
interference from 5G operations at the 24 gigahertz band. I 
look forward to asking Dr. Jacobs for more clear cut answers to 
what these impacts will be, the cost to the American public, 
and how NOAA is working to mitigate these impacts. I am 
entering into the record a letter from the Aerospace Industries 
Association in support of this hearing, and the importance of 
addressing the 24 gigahertz issue. So ordered.
    The weather enterprise is a dynamic entity that continues 
to evolve. Given how rapidly our technological capabilities are 
advancing, it is clear that we need to revisit the interaction 
between the sectors of the enterprise and understand how to 
best utilize these scientific and technological advancements 
for public good. That's why today's hearing should be a good 
opportunity to not only understand the current state of our 
weather enterprise, but how the three sectors of that 
enterprise can work together toward a common goal. Thank you.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon. I would like to welcome and thank all of 
our witnesses for being here today to discuss the important 
topic of the U.S. Weather Enterprise and how we can leverage 
the partnerships between the sectors to improve U.S. weather 
forecasting and modeling capabilities.
    The U.S. Weather Enterprise is one of the most robust 
globally, with NOAA estimating the value of weather data across 
all industries in the U.S. at approximately $13 billion in 
2012. This Enterprise is built upon open communication and 
collaboration between its public, private, and academic 
sectors.
    Americans across the country rely on the data and services 
NOAA and the National Weather Service provide every single day. 
This freely available data serves as the basis of many of the 
consumer-facing weather products we regularly interact with, 
ranging from weather apps on our phones to the local forecasts 
on our TV news. This is a prime example of the strong existing 
partnerships between the public and private sectors of the 
Enterprise. This freely available data is also the foundation 
of much of the research conducted in the academic sector that 
feeds into operations at the Weather Service.
    We have spoken in this Committee about the increased 
frequency of severe weather events that are impacting every 
part of the country. In fact, NOAA has found that, since 1980, 
the U.S. has experienced almost 250 weather and climate 
disasters in which the overall cost and damages have reached or 
exceeded $1 billion.
    A little over two weeks we ago, Dr. Jacobs testified before 
this Committee on the NOAA Fiscal Year 2020 Proposed Budget, 
where he informed the Committee that the U.S. was not the 
global leader in weather forecasting. This is something that 
should concern all Americans--given the need for accurate 
forecasts due to the wide range of severe weather events we 
experience as a nation and the increasing frequency of severe 
weather events due to climate change.
    We have also discussed the need to accelerate research to 
operations at NOAA, but in no place is that more crucial than 
at the Weather Service as it relates to improving U.S. weather 
models and forecasts. However, NOAA's budget request does not 
reflect this critical need, with a more than 40 percent 
reduction in funding for the Office of Oceanic and Atmospheric 
Research where much of NOAA's internal research is conducted, 
and extramural research is funded. I hope to better understand 
how NOAA and the Weather Service plan to address this 
significant research to operations challenge in light of the 
priorities articulated in this most recent budget request.
    I'm looking forward to this hearing starting the 
conversation about strengthening the Enterprise and am pleased 
to have representatives of all three sectors here today. While 
the private sector is perhaps the most diverse of the three, we 
are fortunate to have Mr. Rich Sorkin, CEO of Jupiter 
Intelligence, testifying from the commercial perspective. 
Jupiter provides climate and weather risk analysis based on 
NOAA and other federal and private sources of data. I would 
also like to welcome Dr. Shuyi Chen, whose research at the 
University of Washington is focused on understanding extreme 
weather events, like hurricanes, and depends on federal grants 
from agencies like NOAA. With the Atlantic hurricane season 
starting on June 1st, I am glad that she is here to answer any 
questions about hurricane forecast improvement.
    I am also glad to have the opportunity to discuss an issue 
facing the Enterprise, particularly NOAA, regarding the 
potential loss of our nation's valuable weather data from 
interference from 5G operations at the 24 gigahertz band. I 
look forward to asking Dr. Jacobs for more clear-cut answers to 
what these impacts will be, the cost to the American public, 
and how NOAA is working to mitigate these impacts.
    I am entering into the record a letter from the Aerospace 
Industries Association in support of this hearing and the 
importance of addressing the 24 gigahertz issue.
    The Weather Enterprise is a dynamic entity that continues 
to evolve. Given how rapidly our technological capabilities are 
advancing, it is clear that we need to revisit the interaction 
between the sectors of the Enterprise and understand how to 
best utilize these scientific and technological advancements 
for public good.
    That's why today's hearing should be a good opportunity to 
not only understand the current state of our Weather 
Enterprise, but how the three sectors of that enterprise can 
work toward a common goal.
    Thank you.

    Chairwoman Fletcher. I will now recognize Ranking Member 
Lucas of the Full Committee for his opening statement.
    Mr. Lucas. Thank you, Chairwoman Fletcher, for holding this 
hearing. As I stated in the NOAA budget hearing, weather 
forecasting is among the most important matters in this 
Committee's jurisdiction, and one of our top priorities in 
Congress. We rely on accurate weather forecasting for 
everything from efficient crop planting to protecting life and 
property. From hurricanes, to wildfires, to tornadoes, we have 
an obligation to provide our citizens the most accurate 
information on weather events so they can make informed 
decisions for their own wellbeing.
    Weather forecasting is especially important in my home 
State. Two of Oklahoma's finest universities, Oklahoma State 
and the University of Oklahoma, have long histories of 
researching weather patterns. The National Weather Center is 
based in Norman, and is a national leader in researching 
climate and weather. This year marks the 25th anniversary of 
the creation of Oklahoma's Mesonet, founded as a partnership 
between the University of Oklahoma and Oklahoma State. The 
Mesonet consists of a series of environmental monitoring 
stations that provide data to customers across the State of 
Oklahoma. Our Mesonet is a valuable climate tool, and enjoys 
broad public support. I believe the Mesonet can serve as a 
model for improving forecasting across the Nation, and I look 
forward to discussing this with our witnesses.
    This Committee has a bipartisan history of weather research 
and forecasting policy. During the 115th Congress, we passed 
the Weather Research and Forecasting Innovation Act. This 
legislation provided NOAA important tools to help address is 
sub-seasonal and seasonal forecasting abilities by partnering 
with the private sector to collect weather data and integrate 
it into the forecast. More recently Congress passed the 
National Integrated Drought Information System, known as NIDIS, 
the reauthorization built on previous efforts to help monitor 
and predict droughts, and attempt to mitigate those effects.
    While Congress has taken steps to improve weather 
forecasting, we must be certain that other policies aren't 
undercutting our abilities. We've heard concerns from NASA and 
NOAA about the recent FCC (Federal Communications Commission) 
wireless spectrum auction could potentially undermine the 
quality of weather forecasts due to the overlap of frequencies 
used to detect moisture. We all support the many benefits of 
5G, including faster and more reliable connections, but we must 
develop it in a way that doesn't lower the quality of our 
satellites' remote sensing abilities. I hope the FCC will work 
to address concerns raised by the science community.
    I want to thank our witnesses for sharing their expertise 
today. We have a panel of government, private-sector, and 
academic witnesses whose perspectives should inform this 
Committee's actions moving forward. In closing, let me state 
that working toward improved weather forecasts will be a top 
priority for me in this Congress. While we have made progress 
in improving the accuracy of weather forecasting, many 
challenges remain. This Committee should be a leader in helping 
the Federal Government, the private sector, and the academic 
community pool its resources to take the next step in 
continuing American leadership in weather forecasting.
    With that, Madam Chair, I yield back.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Fletcher, for holding this hearing. 
As I stated at the NOAA budget hearing, weather forecasting is 
among the most important matters in this Committee's 
jurisdiction and one of my top priorities this Congress.
    We rely on accurate weather forecasting for everything from 
efficient crop planting to protecting life and property. From 
hurricanes to wildfires to tornadoes, we have an obligation to 
provide our citizens the most accurate information on weather 
events so that they can make informed decisions for their own 
well-being.
    Weather forecasting is especially important in my home 
State. Two of Oklahoma's finest universities--Oklahoma State 
and the University of Oklahoma--have long histories of 
researching weather patterns. The National Weather Center is 
based in Norman and is a national leader in researching climate 
and weather.
    This year marks the 25th anniversary of the creation of 
Oklahoma's Mesonet, founded as a partnership between the 
University of Oklahoma and Oklahoma State.
    The Mesonet consists of a series of environmental 
monitoring stations which provide data to customers across the 
State of Oklahoma. Our Mesonet is a valuable climate tool and 
enjoys broad public support. I believe the Mesonet can serve as 
a model for improving forecasting across the nation and I look 
forward to discussing this with our witnesses.
    This Committee has a bipartisan history of weather research 
and forecasting policy. During the 115th Congress, we passed 
the Weather Research and Forecasting Innovation Act. This 
legislation provided NOAA important tools to help address its 
sub-seasonal to seasonal forecasting abilities by partnering 
with the private sector to collect weather data and integrate 
it into its forecasts.
    More recently, Congress passed the National Integrated 
Drought Information System (Ny-dis) Reauthorization Act. The 
NIDIS reauthorization built on previous efforts to help monitor 
and predict droughts and attempt to mitigate these effects.
    While Congress has taken steps to improve weather 
forecasting, we must be certain that other policies aren't 
undercutting our abilities. We've heard concerns from NASA and 
NOAA that the recent FCC wireless spectrum auction could 
potentially undermine the quality of weather forecasts due to 
the overlap with frequencies used to detect moisture.
    We all support the many benefits of 5G, including faster 
and more reliable connections. But we must deploy it in a way 
that doesn't lower the quality of our satellite's remote 
sensing abilities. I hope the FCC can work to address concerns 
raised by the science community.
    I want to thank our witnesses for sharing their expertise 
today. We have a panel of government, private sector, and 
academic witnesses whose perspectives should inform this 
Committee's actions moving forward.
    In closing, let me state that working toward improved 
weather forecasts will be a top priority for me this Congress. 
While we have made progress in improving the accuracy of 
weather forecasting, many challenges remain. This Committee 
should be a leader in helping the federal government, the 
private sector, and the academic community pool its resources 
to take the next step in continuing American leadership in 
weather forecasting.
    Thank you, I yield back.

    Chairwoman Fletcher. Thank you, Mr. Lucas. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chair Fletcher. I would also like to thank our 
witnesses for joining us this afternoon.
    The U.S. Weather Enterprise is comprised of academic, 
private, and public sectors. Our federally funded suite of 
environmental observations and weather and climate forecast 
models are complemented by a robust private sector. These 
private partners distribute National Weather Service watches, 
warnings, and advisories to ensure the widest dissemination of 
this information in order to adequately protect the public. The 
academic sector conducts cutting-edge research that feeds into 
our weather models and forecasts. They also train the next 
generation of scientists and engineers for the workforce of the 
Weather Enterprise.
    Despite the strength and unique nature of our Weather 
Enterprise, our country is falling behind in weather 
forecasting.
    Two years ago, Congress passed the Weather Research and 
Forecasting Innovation Act, which included, among other things, 
a focus on regaining U.S. leadership in weather modeling and 
forecasting. I hope our panel will touch upon the extent to 
which this legislation has moved the Weather Enterprise towards 
achieving this goal, and what remains to be done.
    In order to keep up with other countries and be prepared 
for the weather risks associated with a changing climate, we 
need to optimize our investments in weather forecasting. It is 
vital that all sectors of the Weather Enterprise effectively 
coordinate to ensure efficiency and innovation. Setting clear, 
long-term, enterprise-wide goals can prevent duplication or 
gaps in capability.
    The challenge of how to improve our weather models and 
forecasts will not be solved by the federal government alone. 
NOAA and the Weather Service must find ways to capitalize on 
the rapid development of new science, technology, observational 
capabilities, and high-performance computing both internally 
and within the private and academic sectors. Successfully 
making these innovative approaches operational is a key step to 
achieving this goal. Today's hearing will be a good starting 
point to understand the best path forward.
    I look forward to hearing from our expert witness panel on 
how best to address this challenge and learn where we should 
prioritize federal investments in the Weather Enterprise to 
build upon the leadership and contributions of all three 
sectors. Thank you, and I yield back the balance of my time.

    Chairwoman Fletcher. At this time I'd like to introduce our 
witnesses. Our first witness, Dr. Neil Jacobs, was confirmed as 
the Assistant Secretary of Commerce for Environmental 
Observation and Prediction in February 2018. He's been 
performing the duties of Under Secretary of Commerce for Oceans 
and Atmosphere since February 2019. Prior to joining NOAA, Dr. 
Jacobs was Chief Atmospheric Scientist at Panasonic Avionics 
Corporation. He was also previously the chair of the American 
Meteorological Society's Forecast Improvement Group, and served 
on the World Meteorological Organization's aircraft-based 
observing team. Dr. Jacobs has a bachelor's degree in 
mathematics and physics from the University of South Carolina, 
and a master's and doctoral degrees in atmospheric science from 
North Carolina State University.
    Our second witness from NOAA, Dr. Louis Uccellini, serves 
as the Assistant Administrator for Weather Services, and the 
Director of the National Weather Service. Prior to this 
position, he served as the Director of the National Centers for 
Environmental Prediction (NCEP) for 14 years, where he directed 
the operations at nine NCEP centers. Before that, Dr. Uccellini 
has been the director of the National Weather Service's Office 
of Meteorology, chief of the National Weather Service's 
Meteorological Operations Division, and section head for the 
Mesoscale Analysis and Modeling Section of the Goddard Space 
Flight Center's Laboratory for Atmospheres. Dr. Uccellini 
received his Ph.D.,master's, and bachelor's of science degrees 
in meteorology from the University of Wisconsin, Madison.
    Our third witness, Dr. Shuyi Chen, is a Professor of 
Atmospheric Sciences at the University of Washington. Her 
research focuses on understanding extreme weather, like 
hurricanes, and intraseasonal variability that affect the 
global weather and climate system, and improving their 
prediction. Dr. Chen has led national and international 
research programs in both field observations and coupled 
atmosphere ocean modeling. Currently she serves as the vice 
chair of National Academy's Board on the Atmospheric Science 
and Climate. She received her Ph.D. in meteorology from Penn 
State University, her master's in meteorology from the 
University of Oklahoma, and her B.S. in geophysics from Peking 
University.
    The last witness that I will introduce is Mr. Rich Sorkin, 
the co-founder and CEO of Jupiter Intelligence. Jupiter 
provides data and analytic services to better predict and 
manage risks from weather and sea-level rise, storm 
intensification, and changing temperatures caused by medium- to 
long-term climate change. Mr. Sorkin has been involved in 
Silicon Valley startups for 3 decades, commercializing 
technologies in a wide variety of industries. Mr. Sorkin 
received his MBA from Stanford, and his bachelor's in economics 
from Yale.
    The Chair will now recognize Ranking Member Lucas to 
introduce Dr. Christopher Fiebrich, who hails from his home 
State of Oklahoma.
    Mr. Lucas. Thank you, Chairwoman Fletcher, and I am pleased 
to welcome Dr. Fiebrich to our panel of witnesses today. Dr. 
Fiebrich is the Executive Director of the Oklahoma Mesonet and 
the Associate Director of the Oklahoma Climatology Survey of 
the University of Oklahoma. He oversees all activities of the 
Mesonet, ranging from sensor calibrations to research. Dr. 
Fiebrich has published 26 peer-reviewed articles on Mesonet 
activities and research in his career. His Oklahoma roots run 
deep. He has a bachelor's degree, a master's degree, and a 
Ph.D. from the University of Oklahoma, so thank you for being 
here today, Doctor. Yield back.
    Chairwoman Fletcher. Thank you, Mr. Lucas. Each witness 
will have 5 minutes for their spoken testimony. Your written 
testimony will be included in the record for the hearing. When 
you've completed your testimony, we'll begin with questions. 
Each Member will have 5 minutes to question the panel. We'll 
begin with Dr. Jacobs.

                 TESTIMONY OF HON. NEIL JACOBS,

              ASSISTANT SECRETARY OF COMMERCE FOR

           ENVIRONMENTAL OBSERVATION AND PREDICTION,

          PERFORMING THE DUTIES OF UNDER SECRETARY OF

            COMMERCE FOR OCEANS AND ATMOSPHERE, NOAA

    Dr. Jacobs. Chairwoman Fletcher, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to 
testify today. Accelerated advancements in NOAA's global 
forecast system is a top priority. The future of forecasting in 
the U.S. weather enterprise is dependent on the success of this 
program, as this model serves as the underpinning for the 
majority of products and services offered by the National 
Weather Service and our industry partners.
    A skillful global weather prediction system is based on 
three main components: Observations, code, and high-performance 
computing (HPC). NOAA is embracing new and novel in situ 
observing systems, such as smartphone pressure, as well as 
commercial aircraft and ship data. Many of these valuable 
observations are obtained from industry, academia, and State 
partners through the national Mesonet program. The commercial 
weather data pilot has proven successful, and NOAA is now 
planning to acquire GPS RO (radio occultation) data for 
operational use. Satellite data are the most critical inputs we 
have, and the polar orbiting passive microwave sounders account 
for 90 percent of the data used in the global model, and 
provide up to 30 percent of the forecast scale. How the 
observations are used in the model is based on the code. The 
upgrade to the FV3 GFS is tentatively planned for mid-June. 
Future critical advancements are focused on model physics and 
data assimilation. As part of the input quality control, as 
well as enhancing sub-grid scale output, NOAA is exploring 
cutting-edge artificial intelligence techniques.
    To meet these objectives, NOAA plans to harness external 
expertise across the weather enterprise, from industry software 
engineers to university faculty and students. By standing up an 
outward-facing community model development program through the 
Earth Prediction Innovation Center (EPIC), which was authorized 
in the National Integrated Drought Information Systems 
Reauthorization Act of 2018. Based on the Weather Research 
Forecasting Innovation Act of 2017, EPIC will serve as the hub 
for building and maintaining a true community model. EPIC will 
significantly enhance our ability to access external expertise 
across the weather enterprise, and place the global modeling 
program on a path to regain U.S. leadership, as directed by the 
NIDIS Reauthorization ACT of 2018.
    None of this sophisticated code can be developed, tested, 
or run without substantial HPC resources. On the operational 
forecasting side, NOAA has a 99.9 percent uptime availability 
requirement, with mirrored parallel systems that can fail over 
seamlessly to meet mission critical needs of severe weather 
forecasts. The National Weather Service is often compared to 
the European Center of Medium Range Weather Forecast when it 
comes to models, skill, and HPC resources. While we do have 
comparable systems, the European center only focuses on a 
single global modeling system, whereas the National Weather 
Service runs dozens of models to address a wide range of 
issues, from weather and climate, to short range convection, 
hurricanes, ocean waves, air quality, storm surge, inland 
flooding, solar activity, and space weather.
    Transitioning research to operations requires a significant 
amount of HPC. One option NOAA is exploring is cloud-based 
virtual HPC provided by commercial cloud vendors. The potential 
public-private partnerships can solve a wide range of problems, 
from limited availability of internal research compute, to 
providing systems that are accessible to the external model 
development community throughout the weather enterprise. Pilot 
programs within NOAA's satellite division, or NSDIS, have shown 
that the pre-processing of critical satellite data can be 
performed securely and reliably within these cloud-based 
architectures. By moving the processing to the location of the 
data, the potential exists to extract more value from existing 
satellite observations. Likewise, initial testings show that 
running the global model code in the cloud can offer a 
technically feasible and cost-effective alternative to internal 
HPC needed for research and development.
    Finally, NOAA's Big Data Project has proven that commercial 
cloud-based storage is an extremely cost-effective solution for 
hosting and disseminating petabytes of environmental data. 
Making NOAA's data more easily accessible to the American 
public will create a substantial untapped opportunity for 
academic research and economic growth. Thank you again for the 
opportunity to testify today. I would be pleased to answer any 
questions you may have.
    [The prepared joint statement of Dr. Jacobs and Dr. 
Uccellini follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Fletcher. Thank you, Dr. Jacobs. Dr. Uccellini?

                TESTIMONY OF DR. LOUIS UCCELLINI,

        ASSISTANT ADMINISTRATOR FOR WEATHER SERVICES AND

         DIRECTOR OF THE NATIONAL WEATHER SERVICE, NOAA

    Dr. Uccellini. Good afternoon, Chairwoman Fletcher, Ranking 
Member Lucas, and Members of the Subcommittee, and--for--and 
thank you for inviting me to this very important hearing. It's 
come at a--at the right time. Our Nation is experiencing an 
increase in, and impacts from, extreme weather events, such as 
devastating wildfires and floods, heat spells, snow and ice 
storms, tornado outbreaks, and catastrophic hurricanes. All of 
these events are well forecast, and have been well forecast, 
days in advance by the best forecasters in the world, the men 
and women of the National Weather Service. Weather Service 
forecasts execute their daily mission by working with emergency 
managers and other decisionmakers at all levels of government. 
They do this through a process called impact-based decision 
support services, that connects our forecasters directly to 
decisionmakers, communicating critical information so they can 
prepare a community in advance of extreme weather and water 
events to save lives and mitigate property loss.
    Decision support is a major component of our updated 
strategic plan, that envisions building a weather-ready nation 
to ensure communities are ready, responsive, and resilient in 
the face of upcoming extreme events. This plan is embraced by 
our workforce, who now incorporate decision support into their 
daily work. The vision is also embraced by a large component of 
academic, research, and private-sector components of the 
weatherprise, as reflected by the growing list of 9,300 plus 
Weather-Ready Nation Ambassadors, organizations all working 
with the National Weather Service to achieve this formidable 
goal.
    Executing our mission requires a comprehensive forecast 
process that begins with global observations, as you've just 
heard. Processing those data, running weather, water, and 
seasonal climate computer models on supercomputers, forecasters 
applying their expertise and training to use that information 
to develop accurate forecasts and warnings, disseminating the 
information, and then supporting critical decisions made by our 
core partners. Underpinning all of this work are many research 
and development activities, and the critical facility 
infrastructures that support advancing the Weather Service to 
stay at the top of our operational capabilities, for we are 
only as strong as our weakest link.
    We are pushing the limits of scientific understanding of 
the interactions of space, atmosphere, oceans, land, hydrology, 
and ice. More research needs to be done to understand how these 
Earth system elements interact to enable us to improve our 
model-based predictive capabilities of weather and water from 
the short term to the seasonal timeframe. Our partners have 
told us that communicating and delivering consistent and 
accurate forecasts to them is key. To facilitate consistency 
and allow our forecasters to work more with decisionmakers, we 
are developing a new tool called the National Blend of Models 
(NBMs). This tool will combine the best aspect of over 170 
national and international forecast model members at any one 
time to produce a blended 7-day forecast. The goal of the NBM 
is to serve as a scientifically valid common starting point to 
drive more accurate and consistent forecasts across the Nation.
    Disseminating our environmental information internally and 
externally is critical to making the entire weather and water 
enterprise function. We established the Integrated 
Dissemination Program to transfer the organization's 
communication capabilities into an integrated, common 
operational service, with 100-percent backup capability for the 
first time in the history of the Weather Service. Data delivery 
services were upgraded, and the bandwidth to all Weather 
Service officers and external users increased tenfold.
    The level of demand on this system has far exceeded what 
was anticipated, and is now reaching its maximum capacity as 
user demands continue to grow. We need to continue system and 
infrastructure enhancements to ensure future capacity and 
reliability meet these additional user requirements. Hiring 
expert forecasters and other critical operational positions is 
a top priority for us. Through a focused program of policy and 
programmatic innovations, we have turned a corner. Calendar 
year 2018 was the first year in nearly a decade that hiring 
outpaced attrition for that year.
    In summary, moving forward depends on fundamental 
advancements across a full spectrum of activities, including 
our forecasts--our forecasters embracing decision support, the 
Weather Service engaging the private sector across the entire 
value chain, advancements in science and technology, improved 
partnerships with academic research and the broader research 
communities that reach across many disciplines in the physical 
and social sciences, transitioning these research activities 
into operations. As directed by the 2017/2019 Weather Act, the 
Weather Service is evolving to provide more than just weather 
and water forecasts and warnings. It is also providing decision 
support services for Federal, State, local, tribal, 
territorial, emergency managers, and water resource managers. 
Emergency managers have told us that their partnership with us 
has revolutionized the emergency management community from one 
that reacts to events to one that proactively prepares and 
stays ahead of extreme events.
    I am proud of the National Weather Service, especially our 
people, who are on the front lines delivering critical products 
and services every day to help keep our citizens safe. We have 
come a long way, but there's more we need to do for communities 
to be ready, responsive, resilient for the next event, to be a 
weather-ready nation. Thank you.
    Chairwoman Fletcher. Thank you, Dr. Uccellini. Dr. Chen?

                 TESTIMONY OF DR. SHUYI S. CHEN,

         PROFESSOR, DEPARTMENT OF ATMOSPHERIC SCIENCES,

                    UNIVERSITY OF WASHINGTON

    Dr. Chen. Chairwoman Fletcher, Ranking Member Lucas, and 
all other Committee Members, thank you for the opportunity to 
testify today. Based on the questions from the Committee in my 
invitation to testify, I organized my testimony around four 
topics: Building a stronger U.S. weather enterprise and working 
toward a common goal, enhanced national forecast capability and 
meeting workforce need to support national forecasting 
capabilities, and, finally, we would like to chart a way 
forward for the U.S. weather enterprise.
    Accurate, actionable weather forecasts and warnings can 
help save lives and reduce economic loss. Over the past 2 
decades, weather research has enabled tremendous progress in 
better understanding weather process and our ability to observe 
and predict weather. Atmospheric scientists of the United 
States are among the best in the world. However, the United 
States no longer leads the field of numerical weather 
prediction, as documented clearly by a number of National 
Academies reports. I believe that we have the ability to fully 
realize our potential in weather forecasting, be the best in 
the world. We must first understand the challenges we're facing 
so we can identify our weakness, find a solution, making 
progress. We need to build a strong U.S. weather enterprise 
working toward a common goal. I applaud the Committee for 
taking such an important initiative to address this issue in 
today's hearing.
    So I projected on the screen--you can see the weather 
enterprise is complex, has changed significantly over the past 
15 years, and continues to evolve rapidly. We're facing 
challenges to meet the growing need for weather and climate 
information in society. To address these challenges, we first 
should recognize we have some specific things we need to do, 
for instance, model development. We need weather forecasts with 
long lead time. Weather knows no boundaries. What happens over 
the Indian Ocean and the Pacific Ocean can influence rainfall 
and flooding, heat wave, drought, and the potential for 
wildfires in the United States on a time scale of weeks to 
months, so to--predicting these phenomena, we will need to 
represent the slow varying part of the Earth's system, ocean, 
land, and sea ice in our weather forecasting model. On the 
other hand, impact of weather is all very local. Hurricanes 
Harvey, Irma, and Maria showed us very clearly we need the 
level of forecast detail down to the street level for storm 
surge and flooding, and that aid for the decisionmaking, like 
in emergency management, and the electrical grids, and the 
infrastructure, and for recovery process as well.
    The other challenge we have is the research-to-operation, 
which is an unmet challenge. We have tried to communicate it 
for many years now. That remains to be a problem because many 
of the research product has no pathway--go into operation as we 
know today. Advancement in technology, such as high-performance 
computing, cloud-based computing, artificial intelligence, new 
observing capability, and communication capability present a 
number of opportunities for us to really meet these challenges 
of the system. So, in order to move forward, I would like to 
see the uncoordinated enterprise, as we see in the top left (on 
the slide), move toward enterprise that works toward a common 
goal. To do that transition, from my perspective, I would have 
a few recommendations.
    One, we would like to launch a study by the National 
Academies on the future of the weather enterprise. This study 
can help us to assess the current state of enterprise, and the 
way forward with experts from all different areas. Second, we 
need to develop a national unified modeling system to address 
the entire timescale, cross-scale--from the longer lead time to 
the high-resolution local forecast. To do this, we need a 
consolidated national center, with participation from the 
entire weather enterprise, and multi-agency support. Third, we 
would also like to establish for a sustained resource to 
support research, observation, communication, modeling, 
computing, forecasting, and workforce development.
    So, in closing, I think there's no doubt that improving 
weather forecast to save lives and reduce economic loss should 
be a national priority. Restoring U.S. leadership in weather 
forecasts for the benefit of society is a great challenge. No 
single Federal agency, no single private industry, no single 
university, can do it alone. It will take the entire weather 
enterprise. Thank you for inviting me, and I would welcome any 
questions you may have.
    [The prepared statement of Dr. Chen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

      Chairwoman Fletcher. Thank you, Dr. Chen. Dr. Fiebrich?

             TESTIMONY OF DR. CHRISTOPHER FIEBRICH,

               ASSOCIATE DIRECTOR OF THE OKLAHOMA

                   CLIMATOLOGICAL SURVEY AND

           EXECUTIVE DIRECTOR OF THE OKLAHOMA MESONET

    Dr. Fiebrich. My name is Chris Fiebrich, and I'm the 
Executive Director of the Oklahoma Mesonet, and I'm also 
adjunct faculty in the University of Oklahoma School of 
Meteorology, and I want to thank Chairwoman Fletcher, and 
Ranking Member Lucas, and the Members of the Committee for the 
invitation to speak to you today. The Oklahoma Mesonet was 
established 25 years ago, both to address the needs for 
improved severe weather warnings, and to improve our ability to 
research and better understand the weather. We have one or more 
stations in each of our 77 counties so that no matter where you 
are in Oklahoma, we have local, real-time observations within 
about 10 miles of your location. The power of any Mesonet is 
driven by the high spatial density of its observations, and the 
goal of our Mesonet is to provide timely and useful weather 
information to Oklahoma citizens and decisionmakers.
    The Mesonet is a unique partnership between our State's two 
largest universities, the University of Oklahoma in Norman and 
the Oklahoma State University in Stillwater. Our operational 
home is at the National Weather Center on the OU campus, where 
we share space with OU School of Meteorology and five NOAA 
facilities. This gives our students the opportunity to work 
side by side with NOAA's storm prediction center, the National 
Weather Service, and the National Severe Storms Lab, providing 
unique benefits to both the students and the Weather Service. 
Two additional OU research centers that stand out, with regard 
to their engagement with the Weather Service, are the Advanced 
Radar Research Center and the Center for the Analysis and 
Prediction of Storms. These centers are actively developing the 
prototypes for the next generation of weather radar systems and 
testing new weather models and forecast delivery systems, and 
NOAA's hazardous weather test bed.
    My primary expertise is the Oklahoma Mesonet, which I 
oversee at OU. When the Mesonet began 25 years ago, we knew 
we'd fall short of our potential if all we did was collect the 
weather observations. We knew we needed to synthesize the data 
into useful tools for our citizens, first responders, and the 
State's key economic sectors. In the area of fire forecasting, 
we've trained more than 1,600 wildland fire managers on 
weather's impact on wildfire suppression, prescribed burning, 
and smoke management. Many aspects of wildland fire behavior 
can be modeled with real-time Mesonet observations, including 
predicting the likelihood a fire will ignite, how fast it will 
spread if it ignites, and how high the flames will be, given 
the observed winds, temperature, solar radiation, and moisture.
    Mesonet data are also used to improve production and 
optimize inputs for crops and livestock. The occurrence of many 
plant pests and diseases can be successfully predicted given 
observations and Mesoscale weather conditions. Using the latest 
agricultural research, coupled with real time Mesonet 
observations, allows growers and producers to make efficient 
decisions on spraying for pests and diseases, as well as smart 
irrigation decisions.
    While Mesonets like the one we have in Oklahoma provide 
significant value to numerous economic sectors, the greatest 
value that weather observations and prediction systems provide 
is for protecting lives and livelihoods. We've trained over 
1,400 emergency preparedness managers, police, fire, and 
public-health professionals to use our data to keep Oklahomans 
safe.
    Oklahoma, as you know, is subjected to many forms of 
destructive weather, most of which occur on the very short 
timescales of minutes to hours. These are threats that include 
damaging winds from thunderstorms, flooding rains, and 
crippling ice storms. The Oklahoma Mesonet has proven its worth 
in this role by significantly advancing a special form of 
forecasting known as Nowcasting. Nowcasting is the prediction 
of critical weather details in the next 0 to 6 hours that are 
often difficult to resolve through numerical weather prediction 
models. Subtle atmospheric features revealed by the Mesonet 
show the locations of fronts, dry lines, and moisture plumes 
that allow Weather Service forecasters to pinpoint areas most 
likely for convective initiation.
    On the national scale, the Oklahoma Mesonet is part of 
NOAA's national Mesonet program, comprising 30-such university 
and State Mesonets and additional partners. The national 
Mesonet program has proven to be a successful public-private 
partnership model, in which the Federal Government can leverage 
tens of thousands of additional real time weather observations 
from across the Nation without having to maintain and operate 
them. This allows forecasters to use these additional data to 
improve weather models, and thus every community's weather 
forecast.
    It's essential that Congress and the Administration support 
and expand the national Mesonet to ensure that local 
forecasters have access to these highly localized weather data. 
The University is proud to play a role in these programs, and I 
look forward to answering any questions you have about our 
efforts in Oklahoma.
    [The prepared statement of Dr. Fiebrich follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Fletcher. Thank you, Dr. Fiebrich. Mr. Sorkin?

                    TESTIMONY OF RICH SORKIN,

                   CEO, JUPITER INTELLIGENCE

    Mr. Sorkin. Chairwoman Fletcher, Ranking Member Lucas, and 
Members of the Subcommittee, I am Rich Sorkin, CEO of Jupiter 
Intelligence. Jupiter predicts risks from weather and climate 
change. We work with some of the country's and world's largest 
insurance, mortgage, power, and resource companies, responsible 
for roughly $1 trillion in assets, showing them the risks to 
their assets in their language and relevant timeframes. I 
appreciate the opportunity to testify before you today.
    I understand the Committee is broadly interested in the 
weather enterprise, leadership in forecasting, the role of the 
private sector, and all of this against the backdrop of 
increasingly severe weather and impacts due to climate change. 
I have three core points. First, broad sectors of U.S. society 
are increasingly concerned about the growing risks to life, 
well-being, and property caused by climate change. The Federal 
Government should, among other things, do more on preparedness, 
especially in programs related to infrastructure investment and 
the Department of Defense (DOD).
    Events such as Hurricane Katrina, Superstorm Sandy, 
Hurricane Harvey, Midwest flooding, and the California 
wildfires dramatically illustrate the need for improvement in 
planning for, predicting, communicating, and reducing the risks 
from extreme weather. Costs for emergency response and disaster 
recovery, especially from FEMA (Federal Emergency Management 
Agency), are increasing much faster than GDP or government 
revenues. Recently the Air Force requested that Congress 
allocate $4.9 billion for repairs at just two bases, Tyndall in 
Florida, and Offutt in Nebraska, from damages due to severe 
weather, and this is just the tip of the iceberg. The impacts 
of climate change are not just in the future. They are upon us, 
and getting worse, and the risks are resonating in corporate 
boardrooms.
    Second, while NOAA and the National Weather Service do an 
excellent job of forecasting, they could do even better by 
using technologies widely adopted in the private sector, 
particularly artificial intelligence, or AI, and cloud 
computing. Jupiter, for example, is seeing enormous 
acceleration in transitioning research to operations through 
the use of cloud computing. These technologies assist in global 
collaboration, both inside the company and with our university 
partners, and in rapid prototyping and accelerated-performance 
testing. AI is also benefiting Jupiter in the spatial and 
temporal resolution of our predictions, the speed of developing 
new services, and reductions in costs for computing. China, by 
the way, is making enormous progress in AI. We need to ensure 
that we are not leapfrogged by China, both in the weather 
enterprise, and more generally. The Earth Prediction Innovation 
Center, or EPIC, is an excellent first step in NOAA adopting AI 
and cloud computing.
    Third, the path to renewed U.S. leadership across the 
weather enterprise depends upon stronger collaboration between 
the three sectors of the enterprise. A vibrant private sector 
is emerging for solutions to help customers understand, plan 
for, and mitigate the impacts of severe and worsening weather. 
Investors have deployed billions of dollars in satellites, 
other observations, and analytics, including work like ours, 
and will invest more, especially if the collaborative 
relationship is right, with the Federal Government focusing on 
the core modeling that the private sector can build upon. At 
Jupiter, we have followed a collaborative philosophy from the 
beginning, working with the Federal Government and university 
partners. Going forward, I recommend enhanced investment in 
NOAA's capabilities to produce better weather forecasts, as 
well as expanded observations, to help produce actionable 
climate risk services.
    While NOAA's role in saving lives and property is 
paramount, the private sector can supply hyperlocal climate 
information to our colleagues in the private sector, as well as 
local governments. I also recommend easing the way for public-
private collaborations, as well as improved mechanisms for 
allowing pilot projects with NOAA, which could provide 
favorable returns on investment for the government and its 
agencies. I look forward to your questions. Thank you.
    [The prepared statement of Mr. Sorkin follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairwoman Fletcher. Thank you, Mr. Sorkin. At this point 
we will begin our first round of questions. I'll recognize 
myself first for 5 minutes, and I'd like to start with Dr. 
Jacobs.
    When you previously testified before this Subcommittee on 
April 30, you said that the subject-matter experts at your 
agency, NASA, and the FCC are collaborating on a study to set 
out-of-band emissions limits on the 5G spectrum use at the 24 
gigahertz band to prevent interference with weather data. You 
said on the record that the results of the study would be 
decided upon on May 15. When will--a few questions, if you can 
just touch on these--When will the study be released publicly; 
what is the answer on an acceptable out-of-band emission limit 
to protect valuable Federal weather data; and can you explain 
NOAA and NASA's analyses, including how much weather data would 
be lost, and what would be the impact on forecast accuracy from 
emissions bleed over?
    Dr. Jacobs. Thank you for the questions. I don't have an 
answer as to when the actual study will be released. I would 
like to say that NOAA and the Department of Commerce support 
5G. We are dependent on 5G to be very successful in a way to 
distribute our tornado warnings faster to the public, and I'm 
optimistic that we can come up with an elegant solution where 
passive microwave-sensitive 5G can coexist.
    That said, right now the input parameters that we are using 
in the study were provided by the International 
Telecommunications Union, with input from industry. We--
subject-matter experts at the FCC, NASA, and NOAA are going 
back and forth still, debating the input parameters. I don't 
think there's any debate in the actual algorithms in the code 
itself, it's the input parameters. From what I've seen, any 
change to the assumptions in the input parameters proposed by 
the FCC that have some type of scientific basis produce a 
negligible change to the NOAA/NASA number.
    The number currently proposed by the FCC, minus 20 decibel 
watts per 200 megahertz, according to the study would result in 
roughly a 77 percent data loss from our passive microwave 
sounders. This would degrade the forecast skill by up to 30 
percent, so, if you look back in time to see when our forecast 
skill was roughly 30 percent less than it was today, it's 
somewhere around 1980. This would result in the reduction of 
hurricane track forecast lead time by roughly 2 to 3 days. A 
good example of this is a data denial study that the European 
Center did where they withheld the microwave sounder data 
during the forecast for Superstorm Sandy, and a model, which is 
the most accurate model in the world right now, kept the storm 
out to sea. So it's incredibly important--it's a critical data 
set for us.
    The number that we've been dancing around is in the upper 
40s, lower 50s, depending on when--whether you're discussing 
base stations or user hand-held devices. This number would 
result in roughly zero data loss, and then anywhere in between 
there we are looking at data loss possibly large enough to 
prevent us from meeting our mission requirements with the 
future JPSS (Joint Polar Satellite System).
    Chairwoman Fletcher. Thank you, Dr. Jacobs. I have just a 
short amount of time, so I want to ask just more broadly to 
anyone who wants to answer this on the panel, as you all know, 
our economy is becoming increasingly reliant on accurate 
weather data for decisionmaking. Every American consumes 
weather data in their everyday life, and it's in the interest 
of the entire country to understand how the weather enterprise 
plans to move forward in improving the short-, medium-, and 
long-range forecasts, and adapting the forecasts to best serve 
all Americans in trying to understand how the weather will 
impact them.
    So can you--can--whoever wants to touch on this briefly, 
about the current mechanisms, can you talk about the current 
mechanisms for collaboration and communication between the 
members of the weather enterprise, and how they could be 
improved? Anybody wants to take that up? Dr. Uccellini?
    Dr. Uccellini. So I probably had a long history in this, 
goes way back--in trying to get agencies working together on 
this. I think we're in a good spot right now, with respect to 
agencies recognizing that they have to work together to 
advance. This wasn't always the case. There was this divide 
between research, who didn't want to adopt, let's say, the 
operational goals or be hung--have their results hung by an 
operational success when their success is measured by, you 
know, papers they publish, and the research that they--in fact, 
the Academy did a study on this, and they entitled the study 
The Research to Operations Valley of Death. So--and I've tried 
reaching across that many times.
    I think there has to be some kind of programmatic advances 
that a research organization, operational organization, see 
value in the outcome to both. What's happening in the research 
community now, as Dr. Chen has, I think, illustrated quite 
nicely, is that they are interested in how we're moving forward 
to serve society. So now's the time, from a programmatic point 
of view, to--whether it's focused on types of events, broad 
scale from maybe seasonal down to the Mesoscale, how we can 
move forward in that arena, this whole seamless suite of 
products that the research community has put forward, as a 
basis for getting researchers and operational people to work 
together that, I believe, are out there, and want to do it.
    Chairwoman Fletcher. Thank you, Dr. Uccellini. And I've 
exceeded my time, so I'm going to go ahead and recognize 
Ranking Member Lucas for 5 minutes.
    Mr. Lucas. Thank you, Madam Chairman. Dr. Jacobs, following 
up on the first part of the Chair's series of questions, in 
regards to spectrum and those resources, if NOAA is forced to 
stop work on its polar satellites, is there another type of 
observation that can offset that loss?
    Dr. Jacobs. The--not today. I can't say that one wouldn't 
exist in the future, but there's not an existing capability to 
mitigate that data loss that exists today.
    Mr. Lucas. So this really matters?
    Dr. Jacobs. Yes.
    Mr. Lucas. Dr. Jacobs, I understand NOAA is still 
conducting the Commercial Weather Data Pilot Program. Can you 
give us an update on the program, and is NOAA still considering 
purchasing commercial data?
    Dr. Jacobs. Yes. With respect to the testing of the GPS RO 
data in our models, we're seeing a very promising impact. We've 
transitioned this over to--actually, in the proposed budget, to 
acquire this data as an operational data source. The Commercial 
Weather Data Pilot Program will actually look at additional 
instruments beyond GPS RO, perhaps hyperspectral sounders, or 
other instruments.
    Mr. Lucas. Turning to you, Dr. Fiebrich, the Mesonet is a 
valuable resource which assists Oklahomans across the State in 
decisions ranging from farmers deciding when to plant, that 
soil temperature key being very important, to emergency 
personnel preparing for weather events. Can you describe to the 
Committee what makes the Oklahoma Mesonet unique?
    Dr. Fiebrich. Thank you for the question, Representative 
Lucas. I think one of the big things that makes Oklahoma's 
Mesonet unique is that we have survived 25 years, because it is 
a great challenge for the State networks to find the funding to 
keep these networks going from year to year.
    Mr. Lucas. At least twice in my tenure in Congress I've 
made calls home, I'm a former State legislator, to my old 
friends about how important this is over the course of the last 
decade, absolutely. Do you think we could replicate this model 
on a larger scale to provide the kind of weather forecast thing 
that we do in Oklahoma?
    Dr. Fiebrich. Certainly. Once we developed the Mesonet in 
Oklahoma, others took notice. They saw the dividends we were 
bringing to Oklahoma. And over the years we've worked with 25 
States and countries to help them plan and operate Mesonets in 
their regions across the U.S. Because, as Dr. Chen mentioned, 
the weather doesn't stop at boundaries--at State boundaries. We 
need those observations in neighboring States like Texas, and 
Kansas, and Colorado to help make predictions in Oklahoma also.
    Mr. Lucas. In my home community, we're, of course, on the 
side of the Rockies--Southern Plains, the western part of the 
State, as you well know, prescribed burns are a very important 
part of maintaining the ecology of the national grasslands. My 
colleagues here who have not had a chance to look at your 
website would be amazed at the information that the Mesonet 
provides, and literally no prescribed burn plan in Oklahoma 
starts without a requirement to examine, on a moment-by-moment 
basis, the Mesonet sites before you can move on.
    That said, in your role as Executive Director of the 
Mesonet, and a faculty member at the University of Oklahoma 
School of Meteorology, you're uniquely positioned to offer 
testimony to this Committee about the collaboration between 
Federal, academic, and industry. In your experience, is there 
enough collaboration between the different components of the 
weather enterprise? And, for that matter, what actions could 
this Committee take to promote a more effective collaboration, 
Doctor?
    Dr. Fiebrich. Well, as I mentioned, the national Mesonet 
program that I've been able to witness I think is a perfect 
example of that public-private partnership, that cost-sharing 
model, where you can take the expertise of the universities at 
the State level, work with the private sector, and provide the 
Federal Government tens of thousands of additional observations 
at a fraction of the cost. I think specifically this Committee 
could help promote that collaboration by, you know, steady 
growth to the program, supporting the program, because, as we 
have more observations, the forecasts will improve. As there's 
more support, it'll give researchers the opportunity to look 
into new technologies in Mesonets. I think a really exciting 
one is using UAVs. We've launched over 1,000 UAVs at our 
Mesonet sites in prototype mode to look at how that could 
provide observations of the lower boundary layer to provide to 
Weather Service forecasters.
    Mr. Lucas. Thank you, Doctor. Just one more time, Dr. 
Jacobs, let's go back for a moment to the polar satellites. At 
the present time, if we lose the ability to use those, there's 
not another resource of that nature, at the present time, 
available to replace them with that----
    Dr. Jacobs. No. We have no other capability to passively 
observe water vapor.
    Mr. Lucas. Thank you. Yield back, Madam Chair.
    Chairwoman Fletcher. Thank you, Mr. Lucas. I'll now 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman Fletcher, and thank you to 
the witnesses for being here today. I am deeply concerned about 
the reorganization of the National Weather Service forecast 
offices. My questions about EVOLVE have faced delays, 
misinformation, and many questions remain unanswered. I've been 
requesting some of this information since May 2017, so let me 
state the obvious, that was 2 years ago. These delays have only 
added to my concern about what's really going on at the 
National Weather Service. At various times I have been given 
contradictory, and sometimes clearly incorrect information and 
reasoning for the delays, and, at times, I have received no 
answer at all.
    Lacking a consistent credible response, I have to think 
that, where there's smoke, there is indeed fire, and there has 
been an awful lot of smoke these past few years. This prolonged 
pattern of misinformation and evasion leaves me wondering, what 
is the agency hiding? So, Dr. Uccellini and Dr. Jacobs, I'm 
looking for a straightforward yes or no. Will you commit to 
providing Members of this Committee with all of the materials 
that have been requested?
    Dr. Uccellini. Yes.
    Mr. Tonko. And Dr. Jacobs?
    Dr. Jacobs. Yes.
    Mr. Tonko. And can I ask what date would be a reasonable 
date by which to receive that information?
    Dr. Jacobs. We'll have to get back with you on the exact 
date, because that depends on the actual materials that we have 
to gather, but it'll be as soon as possible, I can promise you 
that.
    Mr. Tonko. Well, if you could get back to the Committee, 
and at least give us a date in the very, very near future----
    Dr. Jacobs. Certainly.
    Mr. Tonko [continuing]. So that we can understand what that 
threshold date is. Section 410 of the Weather Research and 
Forecasting Innovation Act of 2017 required the agency to 
submit a report on contractor use and the number of civil 
service vacancies at the NWS by October 2017 and to publish an 
annual report on the Internet within 6 months of the end of 
every fiscal year thereafter. Your agency has missed both 
deadlines. Why have you not submitted and published this 
report, and when will you do so?
    Dr. Uccellini. So we keep track of the level of positions 
we have that are appropriated for, and the number of positions 
that we have on a biweekly basis, so I'm not--I'm a little bit 
confused as to why those numbers haven't gotten out. But, as of 
right now, we are appropriated for 4,623, onboard is 4,194, 
which is 429 vacancies, and we have over 300 hiring actions in 
place right now.
    Mr. Tonko. Thank you. And, Dr. Jacobs, I expressed to you 
the last time you were here that I also have some major 
concerns about National Weather Service understaffing. I'm 
especially concerned that any reorganization or reduction of 
hours not result in any degradation of service. For example, I 
recently learned that the proposed changes to how you 
categorize field meteorologist will, in fact, result in fewer 
forecasters in each office. That is not acceptable. The rush to 
implementation of the national blend model, with the purported 
goal of freeing up forecaster time, is concerning. Background 
of all this makes matters even worse. NWS is not filing 
critical--filling critical vacancies.
    Let me be very clear. If you are defying Congress and the 
American people by using this process to diminish the capacity 
and number of our forecasters, Congress will not be silent. Any 
major transition of this kind needs to follow a process backed 
by research and evidence that show the change will not degrade 
service. Some of the new innovations here are great forecasting 
tools, but they cannot replace having enough experienced 
forecasters on the ground. I have heard from many forecasters 
who are worried about the hasty changes being made, and about 
the resulting negative effect that this will have on public 
safety. Their concerns are credible, and deeply disturbing. 
Based on what we already know, the Committee needs to hear 
directly from forecasters on the ground, as well as emergency 
service providers who rely on them.
    I am nearly out of my time here, Madam Chair, but, again, I 
would hope that we can work together on this going forward, 
because there are important constituents--constituencies who we 
should hear from, including the people who work as forecasters 
at the National Weather Service, and from the State and local 
workers, and emergency workers, who work closely with NWS to 
keep our constituents safe. This is a critical service. As a 
person who chairs the Subcommittee on Environment and Climate 
Change, there's a direct link, and I want to make certain that 
we're utilizing professionalism to the nth degree, and--in the 
most effective and efficient manner. So, with that, I'll yield 
back.
    Chairwoman Fletcher. Thank you very much, Mr. Tonko, and I 
would just like to underscore the importance of providing the 
documents that Mr. Tonko has requested, and, of course, 
providing all documents as they are requested by Members of 
Congress. Thank you very much. I will now recognize Mr. 
Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair. Thank you to the 
witnesses for being here today, and for your attention and 
testimony. In my home State of Ohio we have tremendous research 
institutions that are always at the forefront of innovation, 
and I want to turn my question to the role academic 
institutions play in weather forecasting.
    Dr. Chen, what role, in your opinion, should academic 
researchers play in helping the U.S. to improve its poor 
position in weather modeling, and can you tell us a bit more 
about how the institution should play more broadly?
    Dr. Chen. Thank you, that's a great question. We have 
been--really wrestled with this question for a long time. 
Academia play an important role on several fronts. First, the 
innovative research has been done at the university level, and 
academia, broadly speaking. That's always been the forefront in 
the world, and a lot of research products we're very proud of, 
eager to put them into useful tools for operations. This has 
been an unmet challenge, that I had mentioned.
    Second, academics have played a key role in training the 
future workforce. The need for impact forecast and how people 
respond to forecast, it's very much interdisciplinary and 
multidisciplinary research, and this requires our current 
workforce to be up to date, in terms of both computing, 
management, and there's a lot of interface between physical 
science and the social science. We are very active in terms of 
promoting that multidisciplinary research and education to 
prepare for the workforce to meet the challenge, so the 
academic community really taking this very seriously. Although 
we still have a challenge, we would like to reform our system 
to meet the current technology and science advances.
    Mr. Gonzalez. Thank you. And, Dr. Uccellini, given we're on 
the cusp of new technologies being implemented across different 
applications and parts of our economy, I'm curious to know what 
you see the future role of artificial intelligence and machine 
learning at the National Weather Service. And, Mr. Sorkin, if 
you could talk about it more related to your industry after 
he's done?
    Dr. Uccellini. Well, I think it's going to have a major 
role, and there's a lot of potential in utilizing that to 
assist decisionmaking, both in terms of accessing the data and 
quality control, extracting information from numerical models, 
whether they're the single runs or the ensemble runs. In fact, 
it's no way possible for any human being to extract the--all 
the information out of the myriad of ensemble model runs that 
we access today. And then in the probability aspects, in terms 
of how you affect a decision at key decision points, I think 
it'll be helpful there as well. I do want to emphasize that all 
these systems are better utilized as they're assisting 
decisionmaking by a human being, and that's something that I 
think sometimes gets lost in the enthusiasm for artificial 
intelligence.
    Mr. Gonzalez. Absolutely. Mr. Sorkin?
    Mr. Sorkin. Yes. Jupiter uses a combination of dynamical 
modeling, as is prevalent in the weather enterprise, AI, and 
other forms of modeling. One of the benefits of our cloud-based 
architecture--or infrastructure is the ability to compare the 
results of a dynamical modeling and AI approaches side by side 
in the same modeling chain. We essentially can substitute one, 
see how it performs, versus the other, in terms of the accuracy 
of the predictions, when tested against ground truth data, the 
overall compute load, and the explainability of the results, 
which, in certain regulated industries, is also critical. And I 
would say that overall the private sector, in most other 
domains, is much further ahead primarily because of the amount 
of investment in AI than the weather enterprise generally.
    Mr. Gonzalez. Got it. And then, if you could, how do you 
feel we're doing relative to China on this particular front?
    Mr. Sorkin. Specifically within the weather enterprise?
    Mr. Gonzalez. Specifically AI machine learning. So 
generally.
    Mr. Sorkin. Historically the United States has been a 
leader in AI and machine learning. The Chinese are catching up 
very rapidly. They have fewer constraints on the use of 
consumer data, which in some cases is an advantage in further 
progress on the whole. I think the United States is still 
ahead, however, it's an area that definitely requires very 
careful attention by the Federal Government and the private 
sector on an ongoing basis. And, in addition to that, I would 
emphasize the importance of protecting the country's 
intellectual property, something the President has given 
substantial attention to recently, and that is a critical issue 
for Silicon Valley and the country generally.
    Mr. Gonzalez. Excellent. Thank you, and I yield back.
    Chairwoman Fletcher. Thank you, Mr. Gonzalez. I'll now 
recognize Mr. Crist for 5 minutes.
    Mr. Crist. Thank you, Madam Chair, and thank you for the 
witnesses being here today. We appreciate your attendance. Dr. 
Jacobs, great to see you again, and to have another opportunity 
to discuss the very critical work that NOAA does.
    Today's topic certainly is an important one, Madam Chair, 
and timely as well. We're only 16 days away from the start of 
the hurricane season, so when I heard weather forecasting would 
be the subject of today's hearing, my mind immediately went to 
Hurricane Irma, which, as you know, hit my home State of 
Florida in 2017. Leading up to that storm, the track kept 
shifting. First it was up the East Coast, then up the West 
Coast, and then finally straight up the middle of Florida. The 
entire State of Florida was inside the prediction cone, making 
it difficult for emergency managers to make evaluation 
decisions, and prompting a mass exodus of seven million people 
from the State that clogged our roadways and stressed fuel 
supplies. And while I'm thankful that so many Floridians took 
the storm as seriously as that, some would argue that over-
evacuation can prompt under-evacuation the next time a storm 
may hit, and that's something I'm extremely concerned about.
    Dr. Uccellini, how can we improve track forecasts for 
hurricanes to shrink the cone, perhaps, and provide the most 
accurate information to the public ahead of a large hurricane 
like Irma was?
    Dr. Uccellini. So a couple of points on that. First of all, 
with Irma, we were actually amazed that the government of 
Florida actually declared a state of emergency 6-1/2 days 
before landfall, recognizing, A, the uncertainty in the track 
forecast, and we try to communicate that, and--especially with 
our users who are embedded in the emergency operation centers 
and the like.
    Mr. Crist. For the record, that was not me.
    Dr. Uccellini. I know.
    Mr. Crist. OK.
    Dr. Uccellini. I know. But it was an amazing event for us 
as well, to have that happen, given the uncertainties between 
the tracks up the East Coast of Florida and the tracks up the 
West Coast of Florida. What we saw was that, on either track, 
there was going to be significant impact to the entire State.
    But you're pointing to a really major problem, that 
decisions are made earlier to try to hit that sweet spot for 
the evacuations. And, given that earlier need for 
decisionmaking, it puts extra emphasis on the need for model 
forecasts, because that's the only thing we have in those 
timeframes to base any kind of decisions at 3, 4, 5, 6, 7 days 
in advance. To improve the models, it's all the things we're 
talking about here. You need the global observing network. So 
Dr. Jacobs spoke to the need for the passive microwave sounders 
that any value study of observations into models that I've seen 
rates that as the number one observation for the accuracy of 
the models.
    The--so you have observations, you have--we have to improve 
the models in terms of resolution, the data assimilation to 
ingest the information for those models, and the physics, all 
of the above. And we need--we continually need to press the 
computer industry. For running models operationally we have a 
primary system and a backup system so that it's always there, 
and we're always pushing the envelope on the computational 
capacity that we need to run an operational model system to 
ensure you're getting the best forecast on a timely manner all 
the time. So those three components are there, and we're 
working all three of them. Again, like I said before, we're 
only as strong as our weakest link. We're pressing ahead on all 
three.
    Mr. Crist. Great. Thank you very much. And, Dr. Chen, I'm 
curious, would you have anything to add to this?
    Dr. Chen. Yes. I think Irma taught us lessons for current 
capability. We're not quite--met the challenge of forecasting 
impact. So in hurricane forecasts, we not only need the track 
to be correct, intensity correct, and also the tool to forecast 
storm surge. For instance, Irma--18 hours ahead of Irma, the 
forecast for Tampa Bay area is greater than several foot of 
water, so you know what happened. Tampa Bay not only didn't get 
storm surge, actually water drained out of Tampa Bay. We saw 
the bottom of Tampa Bay, because--wind offshore, and water 
being pulled out of Tampa Bay by ocean currents. This is a 
demonstration that we need a coupled model with ocean, and 
atmosphere, and storm surge capability to make that level--
forecast. So that is the lessons we needed to learn.
    And, at the same time, I do want to tell you that that 
morning the BBC called me about explaining this, because we 
have a publication already describing the full coupling impact 
on storm surge. So the academic community does have research 
results. We're--currently have no direct paths to have that 
function in the National Weather Service at this stage. So I 
want to emphasize the point we need a mechanism to make 
research to operation transition.
    Mr. Crist. OK. Thank you very much. Thank you, Madam Chair.
    Chairwoman Fletcher. Thank you. I'll now recognize Dr. 
Baird for 5 minutes.
    Mr. Baird. Thank you, Madam Chair, and thank you, 
witnesses, for your testimony and discussion of these issues 
about weather. Dr. Chen, you mentioned the changing landscape 
of the U.S. weather enterprise, and the challenges that's 
presenting. You also mentioned, just as kind of an example, 
that these include the shifting balance between government and 
private sector, so I guess my question deals with this. What do 
you foresee, and could you prioritize those for the future 
needs of the U.S. weather enterprise, and how and what Congress 
might do to be able to facilitate that?
    Dr. Chen. Thank you for the question. That's a great 
question. We've been--wrestled with this for--long time. The 
weather enterprise is broad. We have both--we have three 
sectors, the government, and the private, and the academic. So, 
in fact, I want to go back to an example we just discussed, the 
5G. The weather enterprise is broad. A lot of times our 
challenge is even broader because the 5G, that actually showed 
us an example, the weather enterprise interface with other 
sectors. So I think National Academies have the capability to 
bring in all three sectors, and, outside of weather enterprise, 
to really make this assessment--currently.
    For instance, this 5G issue, it is complex. We interface 
with a different part of the technology and economy, so the 
National Academy now is planning to bring the board radio 
frequency, which is not within our current weather enterprise, 
but we are expanding that because--the need for the society. 
So, if I may, I would like to comment on how should we go 
forward for making this enterprise is so broad, and excellent 
on each individual point--parts, but the total is not making up 
the sum of each component. The total should be better than the 
sum.
    So, in order to do that, I really think we have an 
opportunity to bring this into a new operating model that 
brings in the academic, private, with the government agencies. 
Not only one agency, but the multi agencies. National Science 
Foundation, NASA, Department of Energy, Transportation. Many of 
them can bring their expertise to the table to develop models, 
observing capabilities, computing assessment. That's another 
complex field that we have not been able to do full assessment. 
Whether it's the high-performance computing, or cloud-based 
computing, or a combination of many things.
    So our horizon really is looking down the road 10 years, 20 
years from now, so we need to be totally open, bring all the 
sectors coming to the table to design the system. And, in order 
to do that, we need to have a national center to bring the 
entire community in, and developing this unified model can 
address this complex issue we just discussed, because we're 
facing the weather impacts, local and global prediction--
increase our lead time. These are huge challenges. Our current 
modeling systems are not capable of doing this for the time 
being.
    If I may, I want to add one more component. So we all have 
our phones in front of us. The phone--I have my first iPhone 
2007. Only--little more than 10 years, this technology has 
changed our entire society. We are looking in the weather 
enterprise, in terms of next decade or 2 decades, we have to be 
completely open minded, embracing all possible sectors to think 
broad and bold, and thinking that we may really need assessment 
now, and how do we anticipate what's happening next. Thank you.
    Mr. Baird. You timed that very well. You used all my time, 
so thank you very much. What a great answer, and we appreciate 
it. I yield back.
    Chairwoman Fletcher. Thank you, Dr. Baird. I'll now 
recognize Mr. Beyer for 5 minutes.
    Mr. Beyer. Thank you, Madam Chair, very much. Dr. Chen's 
clearly a seasoned testifier before Congress. Dr. Jacobs and 
Dr. Uccellini, it's often been the role of this Committee to 
play defense on behalf of the staff, the workers of the 
National Weather Service, and I just want to make sure to echo 
Mr. Tonko's remarks that we want to make sure that any 
reorganization or the reduction of hours don't result in a 
degradation of service. We'd like to work closely with you to 
make sure that that workforce that's so essential is treated 
fairly, and is part of the solution.
    Moving on--and I--again to Dr. Jacobs, Dr. Uccellini, I 
read really carefully your testimony about 85 percent of the 
data is water vapor data that you use for weather forecasts, 
and that, due to the physical properties of water, water vapor 
can only be measured at the frequency bands currently 
allocated, the FCC's proposed radio frequency, etc.--we have 
apparently heard a great deal from the digital community, the 
AT&Ts and others, saying, no, no, this is not going to 
interfere with NOAA. Where's the science on this, and how do we 
respond to the FCC chairman's notion that there's no science to 
back up this idea there's a conflict with this 24 band and 
NOAA's need for the data?
    Dr. Jacobs. Well, we've been working together with NASA and 
the FCC for the last couple years on this study, and actually, 
at the request of the FCC, we've reconducted this study 
multiple times, in fact, wholesale rewriting the software in 
Matlab for a second time. I really don't think anyone's 
debating the actual algorithms in the study. The debate tends 
to be around the assumptions of the input parameters. And right 
now we're using the input parameters that were provided from 
industry that meet the recommendations by ITU. So, if there's 
other parameters beyond that, you know, we would have to 
determine whether there's any scientific basis for that or not. 
Again----
    Mr. Beyer. Is----
    Dr. Jacobs. Go ahead.
    Mr. Beyer. Is this the kind of thing that you would 
encourage Congress to take an active role in protecting the 
weather data, and therefore pushing back on the FCC's intent to 
go forward?
    Dr. Jacobs. Well, I, you know, I haven't seen any 
scientific evidence to support the minus 20 decibel watt per 
200 megahertz number, so right now the only scientific studies 
I've seen out there are the ones produced by NOAA/NASA which 
have been concurred with by the Navy, as well as an independent 
European Space Agency study, which actually concluded a more 
restrictive number than we came up with.
    Mr. Beyer. OK. Thank you very much. Mr. Sorkin, in Dr. 
Davis--Dr. Uccellini's testimony, they also talked about the 
availability of the unique data sets developed by the 
commercial sector, the private sector, could potentially 
jeopardize not only academic research, but also the market for 
specialized weather products and services. So I think they were 
trying to do the yin and the yang. On the one hand, we want to 
have all this data available to the researchers, on the other 
hand, what do you have left to sell? What's the private 
sector's perspective on the data sharing?
    Mr. Sorkin. The private sector is a diverse and complicated 
entity. It's not one particular viewpoint. So, for someone like 
Jupiter, we are consumers of the data from the Federal 
Government, and in particular NOAA and NWS, and it would be 
substantially disruptive to our business if some of that data 
and the modeling that NOAA does, based on that data, were no 
longer available. On the other hand, like Dr. Jacobs, we see 
that technologies, like GPS RO, are quite promising in 
improving the skill, or overall performance, of the weather 
forecasts, and so I would take a blended approach. It's kind of 
case by case. Certain data is of great value add to both NOAA 
and the private sector. Other data might be directly 
competitive. From our perspective, we kind of sit on top of 
that, and will use whatever the best available data is, whether 
it's coming from the Federal Government or the private sector. 
And that then translates into the best available services for 
citizens in places like New York, and Houston, and Puerto Rico, 
and throughout the country, in terms of understanding these 
risks, and we're really agnostic as to where the data comes 
from.
    Mr. Beyer. Great, thank you. And later, Dr. Jacobs, I'd 
love--explain to me cubing the sphere, and how parallel that is 
to squaring the circle, but my time is up, so----
    Chairwoman Fletcher. Thank you, Mr. Beyer. I'll now 
recognize Ms. Gonzalez-Colon for 5 minutes.
    Ms. Gonzalez-Colon. Thank you, Madam Chair, and thank you, 
all the witnesses here. And, coming from an island that 
suffered two hurricanes in a row, Irma and then Maria, I'm 
really grateful for all the help NOAA and the rest of the 
agencies gave to the island. Not just to the reconstruction--we 
lost our power, we lost our communication, we lost our radars. 
And we actually lost our Doppler, and the airport as well, with 
the radars at the airport. So it was because of the U.S. 
Marines Corps radar units and the Department of Defense that 
were lended to us on a temporary basis for a few months, I 
think 9 months until you repaired the Doppler and the radar. 
And we allocated funds for that during the bipartisan bill, 
plenty in different areas for repairing new technology, and the 
sensors.
    My first question will be, all the Dopplers and the radars 
are repaired using new technology, or they were just repaired 
as they were before the hurricane?
    Dr. Uccellini. So, first of all, you know, thank you for 
your comments. We actually worked with the Department of 
Defense, and we're very thankful for the interaction of 
bringing their X-band radars to you, and it was more than one, 
and--remind everyone you were still in the middle of the 
hurricane season when we were able to do that. And we got the 
Doppler reconstituted.
    In that process, we actually improved the receivers and the 
transmitter components of the radars. That was part of an 
ongoing effort for the Service Life Extension Program for all 
the radars in the United States. So we built that new 
technology in, but still operating on the same principles, 
including the inclusion of the dual pole, so----
    Ms. Gonzalez-Colon. Yes. The reason I'm asking this 
question is I remember working with you guys, and the rest of 
the Federal agencies, to make that happen, and remembering when 
you used military planes to have the pieces to work that out. 
And when you've got no radars, no commercial planes flying to 
the island, no water, no electricity, and no telecom, it was a 
complete theater of war, what we experienced at that time.
    So my next question to you will be in terms of making all 
the funds that were assigned for the marine debris assessment 
and removal, the repair and replacement of certain assets, the 
physical property mitigation, improved weather forecasting, all 
those funds that were allocated to the repairs across, you 
know, not just Puerto Rico, Virgin Islands, Florida, and the 
rest of the States, all those repairs have been done?
    Dr. Uccellini. Yes. We're working according to the spend 
plans that were submitted to Congress.
    Ms. Gonzalez-Colon. So we don't need any more funds for 
that?
    Dr. Uccellini. That I can't answer right now.
    Ms. Gonzalez-Colon. OK. That was the point of one of the 
question directly. My second question will be, then, how can 
we--if we can elaborate on any other new improvements that we 
may need in order to have a better position to withstand 
similar hurricanes affecting the same structures, do we have 
any other new way to maintain those units on the island?
    Dr. Uccellini. I'm sorry, are you talking about--the means 
for measuring and providing the information, we are working to 
build--we, you know, the capacity of that is always something 
that we're trying to improve.
    Ms. Gonzalez-Colon. Let me better explain what I meant----
    Dr. Uccellini. OK.
    Ms. Gonzalez-Colon [continuing]. In my question, maybe. We 
are part of the Caribbean belt, we are in the hurricane area, 
so this is something that, every year, we will have our 
hurricane seasons. My question is, the units, the radar, the 
Doppler, and all the equipment that we've got on the island can 
withstand another hurricane of the same magnitude. Do we 
improve the way they were built, or that's something that, of 
course, may happen?
    Dr. Uccellini. I'll have to get back to you on the specific 
specifications for that, but a Cat Five hurricane----
    Ms. Gonzalez-Colon. Is complete destruction.
    Dr. Uccellini [continuing]. Will still have its destructive 
capabilities, I'm afraid.
    Ms. Gonzalez-Colon. Actually, I agree with you. My question 
will be if there are any other opportunities that we may have 
to improve the location of the radars? I know that when you 
brought one of the radars, you established a pilot program in 
Aguadilla, and you can come back to me on that. I know my time 
is expired, so I will submit the rest of my questions for the 
record. Thank you, and I yield back. Thank you.
    Chairwoman Fletcher. Thank you. I will now recognize Mr. 
Casten for 5 minutes.
    Mr. Casten. Thank you, Madam Chair. Thank you to our panel. 
So when I was starting my career as a young chemical engineer, 
I had a colleague who used to like to tell a story that--about 
a boy who walks by a cave, and he sees a dragon, and he taps 
the dragon with a pencil, and the dragon stays asleep. And he 
said, only the dumbest kid on the planet would say, you know 
what, I can linearly extrapolate that I can probably safely 
punch the dragon in the nose. I tell that story because over 
the course of my lifetime, atmospheric CO<INF>2</INF> 
concentrations have gone from 325 to 415, almost 30 percent, 
and we have behaved like that dumb little kid. We have linearly 
extrapolated that first 10 ppm, 20 ppm, didn't seem to do 
anything, and so we've just kept burping CO<INF>2</INF> into 
the atmosphere, and we have now woken up the dragon. The nerd 
version of this is do not perturb volatile systems.
    Fourteen billion-dollar weather events last year, wildfires 
on the West Coast, the bomb vortex in the Midwest, which 
followed shortly the polar vortex in the Midwest, Midwest 
flooding. Every year is the hottest year on record. And in an 
increasingly volatile system, we depend increasingly on having 
accurate weather forecasting for our farmers, for folks on the 
coast, folks in--like my daughter wondering how to seal the 
door when the bomb vortex was coming in.
    I am really concerned, in light of that history, that the 
Trump FY 2020 budget request slashes our ability to do weather 
forecasting. I think it's a 7 percent total cut. It's a $12.5 
million cut in Mesonet funding, sorry, Dr. Fiebrich. I believe 
it's a halt in HPC resources for hydrological prediction, which 
is a concern about Midwest flooding, and almost a 10 percent 
cut in full-time employees at the National Weather Service. Dr. 
Jacobs and Dr. Uccellini, were you consulted on that budget 
request?
    Dr. Jacobs. So we spent a lot of time working very hard 
trying to put this budget together, and, in a situation that 
required really tough choices, and trying to balance 
priorities, we made the decision to implement these cuts 
primarily on external grants. So we are going to----
    Mr. Casten. But hang on, you say hard choices. You--did you 
make a decision programmatically to cut those services, or were 
you told to meet a dollar value?
    Dr. Jacobs. So we have a number that we have to work 
within----
    Mr. Casten. No, excuse me, you don't. You can propose 
whatever budget you want. We're going to decide whether you 
like it. Did you request--did you formally request that budget, 
or were you told by the Trump Administration this was the 
budget you had to manage to?
    Dr. Jacobs. So this budget was our formal request----
    Mr. Casten. OK. So you requested those cuts in programmatic 
resources?
    Dr. Jacobs [continuing]. But these cuts do not pertain to 
our actual operational capabilities. There's not going to be 
any degradation in our forecasting capability.
    Mr. Casten. Did you formally model that?
    Dr. Jacobs. Well, there will probably be a delay in some of 
the research capability, but that was the reason why we 
implemented the Earth Prediction Innovation Center. That was an 
additional $15 million to harness the external development----
    Mr. Casten. No, but hang on, you just said this is not a 
diminution in the--I mean, I heard you talk about the 
importance of the HPC program, which is being cut. I heard a 
lot about Mesonet, which is being cut. You're saying that there 
will be no diminution of our modeling resources. How did you 
come to that conclusion?
    Dr. Jacobs. Well, a lot of the research side of the compute 
we can actually work in the cloud. There's also another thing 
that we're looking at, in the interest of doing acquisition of 
HPC, is a cancellation liability fee. So that's something 
that's actually----
    Mr. Casten. OK, but we're tight on time. I'm asking a 
quantitative question, and you're giving me a qualitative 
answer. How do we--you know--how do we know, on this side of 
the dais, how does the American public know that in a world 
with more and more volatile weather, that these draconian cuts 
to the system are, in fact, going to maintain accuracy of 
weather forecasting in an increasingly volatile weather world?
    Dr. Jacobs. We would not make any cuts that are going to 
decrease our forecasting skill. How we prove that to you, I 
suppose you would have to look at our model verification 
scores.
    Mr. Casten. Can you share the--that analysis with the 
Committee?
    Dr. Jacobs. They're posted online. I can share the link.
    Mr. Casten. If you are wrong, how quick is it to restore 
those programs?
    Dr. Jacobs. Well, I'm confident I'm not going to be wrong, 
so that's a question that I can't answer.
    Mr. Casten. I don't think any of us should be that 
hubristic, sir. I'm not that confident in my own abilities.
    Dr. Jacobs. Well----
    Mr. Casten. If we cut 110 people, how much institutional 
knowledge is lost? If we are no longer funding the HPC program, 
and all of a sudden a flood comes through that we didn't 
predict, it's a little late to say, well, Dr. Jacobs said he 
was confident he wasn't going to be wrong. How do we get that 
confidence, as we sit here and decide what the budget should 
be?
    Dr. Jacobs. So these cuts were to extramural grant programs 
with cooperative institutes and programs like that. We're not 
making any cuts to our operational capability.
    Mr. Casten. Well----
    Dr. Jacobs. It's not going to get worse.
    Mr. Casten [continuing]. My time is up, but 110 employees 
is a concern. I yield back my time. Thank you.
    Chairwoman Fletcher. Thank you, Mr. Casten. I'll now 
recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. If I could just follow up on that same line of 
questioning, I would just like to clarify, because I don't 
know--I also was concerned that there are such serious cuts in 
the 2020 budget request. I have a National Weather Service 
forecast office in my district, with excellent employees who 
just went through a government shutdown and worked without 
being paid this same year, doing, you know, work that we all 
know needs to be done. So under--let me just make it a simple 
question. Under your budget request, as you see it now, do you 
believe that there would be any staff positions cut from the 
National Weather Service office in my district, in the 17th 
District of Pennsylvania?
    Dr. Jacobs. No. We're not planning to cut any staff offices 
or personnel there. We're actually--so this last year was the 
first year since 2011 that hiring has actually outpaced 
attrition. If there was a decrease in actual staff, it was 
because the shutdown happened at the end of the year, and 
typically people retire at the end of the year, so we have to 
cover that gap, and we're still in the process of digging out 
of that hole, but we are certainly headed in a positive 
direction.
    Mr. Lamb. I appreciate that clarification. So you believe 
that the cuts you have requested would not apply to actual 
personnel, but would apply to some of these other research 
programs that you're talking about?
    Dr. Jacobs. It's on the research side. And I would like to 
take this opportunity to also highlight the national blend of 
models. I want to make sure everyone's aware that this is not 
meant to replace forecasters at all. It's meant to be a tool to 
help them.
    Mr. Lamb. I appreciate that. Thank you. Dr. Uccellini, do 
you agree with that same assessment by Dr. Jacobs, that there 
will not be a personnel impact from the budget cuts you are 
proposing?
    Dr. Uccellini. The budget states that they recognize our 
desire to apply personnel to this decision support services, 
but some of those resources will be redirected to other 
administration priorities.
    Mr. Lamb. Would you mind just answering my question with a 
yes or no? His assessment is that it will not affect staff or 
personnel in the weather forecasting offices. Do you agree with 
that?
    Dr. Uccellini. The--there is a decrease in the Weather 
Service that are--that's applied to the particular part of the 
budget that does involve personnel. There is still a question 
as to whether we can absorb that or not, with respect to the 
current staffing levels.
    Mr. Lamb. And which personnel would be affected that you're 
referring to? Which portion of the budget is that?
    Dr. Uccellini. That's the analyze forecast support. It's 
the--in the forecast area. So that--it's not a large cut, but 
it's something that we have to look at and apply within that 
particular portfolio.
    Mr. Lamb. OK. And there are about 434 vacancies at the 
National Weather Service already?
    Dr. Uccellini. 429.
    Mr. Lamb. 429? All right. It's moving in the right 
direction, I guess. My point is this. I've met these people. 
They live and work in my district. They do excellent work. They 
absorbed a very difficult shock in their own personal lives, 
when they had to work through the shutdown this year, doing 
work that the country needs them to do. I think they deserve a 
little bit of clarity on whether they're getting help inside 
their agency or not. Many of these people feel overworked. 
They're working additional hours. Now they realize that, you 
know, the administration that oversees them is proposing cuts 
to their agency, and we're getting two different stories on 
whether those cuts are going to affect the personnel situation 
at that office. So I would request that the two of you 
communicate over exactly what's happening here, and if you can 
follow up with us on exactly what the personnel impact of these 
budget cuts would be, I think we all want to know that before, 
you know, we render a decision on what we think of the budget 
request. And with that, Madam Chairwoman, I yield back the 
balance of my time.
    Chairwoman Fletcher. Thank you very much, Mr. Lamb. And I--
again, I want to thank all of the witnesses. This has been such 
a good panel that your prize is a second round of questions 
from Members of Congress. So we agreed up here that this is 
something--we all would like to follow up on a few other 
things, and so I'm going to first yield myself an additional 5 
minutes to ask questions, and I want to do a quick follow up on 
the budget.
    We've already had a budget hearing, but I did want to 
follow up, as we talk about funding levels, about making sure 
that our communities are equipped with an accurate hurricane 
forecast. As we head into hurricane season, that is the number 
one concern in my district. I represent Houston, and we, of 
course, were impacted by Hurricane Harvey. So, on the budget 
question, I just want to ask you, Dr. Jacobs, to follow up, can 
NOAA ensure that our communities are equipped with the best 
possible hurricane forecast, given the funding cuts in these 
areas?
    Dr. Jacobs. There's not going to be any degradation to the 
forecast skill.
    Mr. Lamb. OK. And then my other follow up question, before 
I was asking, and Dr. Uccellini had a chance to answer my 
question, but would anyone else like to comment on mechanisms 
for collaboration and communication between the members of the 
weather enterprise? I think I cutoff some potential answers in 
the last round, so I would love to hear from you, Dr. Chen, 
from Mr. Sorkin, anyone who wants to weigh in on this.
    Dr. Chen. Thank you for the question. If I may, I would 
like to address--several questions came up during this hearing 
specifically addressing to, Chairwoman, your question about how 
we best go forward. One of the difficulties right now is our 
enterprise has this very broad, complex needs for the society 
service. So currently we have--like NOAA and some other 
agencies, the budgetary priority is set year to year, and 
sometimes we are put in this reactive position, which--
something that National Academy has been proposing the study to 
look long-term at how we best predict these weather extremes, 
and--in the changing climate that will benefit society in the 
long term how do we best position ourself--forecast weather 
to--from the very high-resolution model, like resolving Harvey, 
flooding, if you probably recall, during Harvey much of the 
flooding was due to rain. Storm surge blocked drainage. Also, 
the built environment that actually blocked the drainage to the 
ground. So these are very challenging.
    In my third part of the written testimony, we--asking 
Congress to help. So I think you can really help to organize 
this enterprise, look 10 years, 20 years down the road. We had 
very successful models to do this before. The decadal survey 
from the Earth--observing from space just published last year, 
that map out very long-term plan--200 scientists involved in 
developing that plan, and take a long-term vision. So this way, 
if we have something like that in the weather enterprise, we 
can best organize our entire country to take a long-term plan. 
We do not have to do this reactive thing that--year to year 
that put us in this very difficult position.
    I'm pretty sure the whole country will be saying, well if 
we have weather like the decadal survey we can start acting 
now, and continue to meet our challenges.
    Chairwoman Fletcher. Thank you, Dr. Chen. Mr. Sorkin?
    Mr. Sorkin. Thank you. Jupiter looks at this question from 
several perspectives. First, our current product, second, our 
product road map, and third, the difference between 
universities and the public sector. With regard to our existing 
products, the company is 2-1/2 years old. We deployed our first 
service in under a year, and part of that was through 
collaborations with university partners in New York that 
included Columbia University and Brooklyn College, where we 
identified very specific scientific expertise that we wanted to 
leverage into our commercial services. We've done the same 
thing with Rice in Houston, and similarly in Florida and around 
the world.
    Second, from the perspective of our long term product road 
map, so say 3 to 10 years, we identify emerging science that we 
believe will have a positive impact on the predictive quality 
of our services for protecting life, and infrastructure, and 
continuity of mission for things like hospitals, and roads, and 
hotels, and power plants, and the like. And there--we talked 
earlier about cloud computing. One of the things that we're 
working quite aggressively on is helping our university 
partners access cloud compute resource, integrate it into our 
operational infrastructure, and test the models even before 
they're ready for operations to accelerate the research to 
operations process. We can do that because we're very targeted 
on a specific set of customer solutions, and work backward from 
that to the short-term and medium-term science that's required.
    From a government perspective, we have a very good dialog 
with our colleagues at NOAA, and I think they're--the best, 
most useful thing, from a NOAA perspective, is transparency on 
the existing scientific priorities, as well as what's coming 
down the pike, both internally within NOAA, and from a 
scientific funding perspective. I think they do a good job on 
that, and we'll continue to work closely with them to better 
understand what's coming down the road to deliver these risk 
services in places like Houston and Texas generally.
    Chairwoman Fletcher. Thank you, Mr. Sorkin. And I've once 
again gone over my time. I'm going to recognize Ranking Member 
Lucas for 5 minutes.
    Mr. Lucas. Thank you, Madam Chair. Dr. Jacobs, let's talk 
for a moment more about the spectrum issue, and at the 
conclusion I'd like to offer an observation or two about the 
budget process.
    And while--question to you, sir. While we wait for the 
public release of the NOAA/NASA study, can you explain the 
process you used to validate the study?
    Dr. Jacobs. So typically we would take these algorithms, we 
would use a baseline set of assumptions, first testing things 
that are known quantities, and reproducing outputs that are 
known. That's how we actually verify the code. The actual 
subject-matter experts--this was validated with NOAA subject-
matter experts. It was concurred with the Navy, and then, most 
importantly, validated by the subject-matter experts at NASA, 
and this is an agency that sent a man to the moon 50 years ago 
using calculators, so I would certainly trust their input. But 
just to convince myself, I actually got a copy of the Matlab 
code myself, and I can tell you it's fairly straightforward. 
You don't even need to compile it. You just have to have Matlab 
and the right toolboxes.
    Mr. Lucas. So you don't even need a slide rule to do that?
    Dr. Jacobs. Or an abacus.
    Mr. Lucas. Thank you. Dr. Jacobs, also would you describe 
the timeframe of NOAA's interaction with the FCC leading up to 
the March spectrum auction?
    Dr. Jacobs. So we had assembled subject-matter experts from 
NOAA, NASA, and the FCC as far back as 2017, going back and 
forth on the studies. There was an original study, there was a 
lot of questions about the assumptions that went into the 
software, which was a pre-packaged software, which is 
relatively black box. You couldn't look at the source code to 
determine anything from it. So the FCC requested that we 
reconduct the study with code that you could actually see, and 
you could actually change the input parameters, which was a 
valid request. So we redid that. That began, I believe, 
somewhere last fall, November/December timeframe. Then we had 
the shutdown. On the heels of the shutdown we reconvened, and, 
at that point, had output, and have been going back and forth 
with the FCC ever since, where their subject-matter experts are 
proposing new assumptions, and questioning the inputs, and then 
we re-run the study with those inputs, and come back with the 
results, and we're still sort of stuck in that do loop, so to 
speak.
    Mr. Lucas. The public would call it running the time out, 
so to speak.
    Dr. Jacobs. Well, we haven't seen anything that has been 
proposed by the FCC as far as assumptions that have changed the 
results of the study thus far.
    Mr. Lucas. So you're comfortable in saying that NOAA has 
dotted all the I's and crossed all the T's in preparing this 
information?
    Dr. Jacobs. I'm confident that the study is acceptable.
    Mr. Lucas. Thank you, Doctor. And let me touch, for the 
benefit of my colleagues, a little bit on the budgeting 
process. Having been around a little while, I've discovered 
that, generally, when an executive budget comes down, the only 
thing that's ever recognized by people is when on the rare, 
rare occasion an Administration asks for additional spending, 
then we tend to respond to that in Congress. That was a weak 
attempt at humor, but a factual statement nonetheless.
    Typically Presidential budgets, executive budgets, are 
something that are required in the 1974 Budget Act, and are 
examined, and set aside. The 1974 Budget Act gives the U.S. 
House, the U.S. Senate the responsibility, yes, to look at the 
President's executive budget, but to craft our own, and to 
reconcile that final document, and use that as the product for 
the appropriation process to move forward. While we have an 
executive budget that many of us find fascinating, I think the 
focus of this body should be how do we persuade on the Budget 
Committee to do their work so that we'll have a real document 
that the appropriators can move forward with, and fulfill all 
the responsibilities of the 1974 Budget Act?
    So while I, like many Members, have typically been 
underwhelmed by the executive branch budget, whichever 
Administration offered it up, the real onus is on us to do our 
work, and we should try harder to do our work and fulfill our 
responsibilities. With that, I yield back, Madam Chair.
    Chairwoman Fletcher. Thank you, Mr. Lucas. I'll now 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman Fletcher. The--in May 2017 
a Government Accountability Office (GAO) study confirmed the 
vacancy rate in NWS operational units has already reached a 
point where NWS employees are, and I quote, ``unable at times 
to perform key tasks.'' According to the GAO, NWS managers 
admit, and again, quote, ``that employees are fatigued, and 
morale is low,'' and that employees, quote, ``were demoralized 
because they had to cover the workload for multiple 
vacancies.''
    Service assessments, which the NWS itself conducted 
following 12 major storms that occurred between 2008 and 2017 
found that the ability of the NWS to protect lives during these 
major events was compromised due to already inadequate staffing 
at critical forecast offices, or river forecast centers. Yet 
the Administration has now proposed to cut 20 percent of all 
the forecasters at the Nation's 122 forecast offices, as well 
as close an unspecified number of forecast offices at night and 
on weekends as a result. The President's NOAA budget request 
admits that these closures are a potential risk to the public 
and partners. How do we reconcile these cuts with the stated 
reality that we're hearing from forecasters?
    Dr. Uccellini. Well, since May 2017 we've actually focused 
our hiring on entry level meteorologists and hydrologists, and 
we track every forecast office in terms of the availability to 
cover shifts and do the other tasks. And we--we're in a better 
place now with respect to that than we were in May 2017. I--not 
aware of any plans to part time offices, as it's called, nor--
or shut down any offices, so I'm not sure where that's coming 
from, but it's certainly not in any of our plans.
    Mr. Tonko. And in terms of vacancies, the number again?
    Dr. Uccellini. The vacancies we have right now are 429, 
compared to the appropriated level. In other words, we just 
heard about the budget process, and we actually staff according 
to what is appropriated. So that's 4,623, and right now we are 
looking at 429 vacancies, and we have about 301 hiring actions 
going. I should also note, for this year, having that 5-week 
shutdown has had a major impact on our abilities to sustain the 
momentum that we had going into December of last year, so we 
are concerned about what--you just--there's not just a light 
switch that you turn this process back on, and the same people 
are waiting in the--are waiting there to be brought on. A lot 
of the people don't stay within that process once it's shut 
down.
    So we do have concerns for the very near term because of 
that, but we were on an upward trend, and that focus that we 
had was on the entry-level meteorologists to account for what 
you reported on from the May 2017 report.
    Mr. Tonko. Right. And I know that the executive budget is 
something that we need to work away at, but a starting point is 
always an important factor. And, with all of these vacancies, 
it would've been good if we had an executive that believes in 
climate change so that the numbers in a budget presented from 
the executive branch would reflect that in the budget planning 
that is envisioned for the agency.
    I've also heard concerns that NWS forecast offices may be 
reduced, and these offices may no longer operate 24 hours a 
day, or 7 days a week. Are any such plans being studied, 
developed, or implemented by NWS to reduce the hours of 
operations at our NWS forecast offices?
    Dr. Uccellini. So what we have seen in analysis and 
experience over the past 2 years is that in meeting the needs--
increased needs, as specified in the Weather Act, of the 
impact-based decision support services, the forecast offices 
are taking on increased importance in our ability to do that. 
So I'll tell you that, within the Weather Service and NOAA, 
that we are working toward actually supporting those 
forecasters to meet those increased needs, and we've listened 
to the emergency managers, who have expressed the same concerns 
over the last several years, that we're working with them, and 
they're asking for 24 by 7 with respect to those local offices. 
But how we manage the resources within those offices is 
something that we have to do within what's appropriated to us.
    Mr. Tonko. Well, in yielding back, I would just ask that 
you indicate which sites are--if they are going to be 
considered for reductions, if you could share that information 
with the Subcommittee, that would be important. And with that, 
I yield back, Madam Chair.
    Chairwoman Fletcher. Thank you, Mr. Tonko. I'll now 
recognize Ms. Gonzalez-Colon for 5 minutes.
    Ms. Gonzalez-Colon. Thank you, Madam Chair. And, again, I 
couldn't finish to say thank you to the agencies that helped us 
out in the moment of need. And, I mean, all of your agencies 
went beyond and above to put us in place after the hurricane. 
And one of the lessons that I want you to tell me about is 
about incorporating relationship within the Federal agencies 
and the private sector to making this happen after the 
hurricane. Because without communication, without the radars, 
without a lot of the assets on the ground, I know you came 
together with Department of Defense and Marines, the agencies 
themselves, and even the private sector, could make things 
happen.
    My question will be, are there any lessons that we need to 
put into law, or in an agreement with the private sector as 
well, in order to face this kind of emergency situation from 
now on?
    Dr. Uccellini. Well, one of the lessons--first of all, 
we're working in partnerships with the Federal agencies. We 
recognize that to--in terms of making a forecast, and providing 
it for decisionmaking, we can't do that alone, and clearly 
there are other agencies that are actually on the ground, 
either preparing a location for an extreme event, or responding 
to it, or working after to restore. So a component of NOAA, the 
National Ocean Service, spends a lot of time working to restore 
the coastal areas and the harbors, as an example.
    With respect to the private sector and the non-profits, 
which are playing an increasingly important role, many of those 
people and organizations are part of the Weather-Ready Nation 
Ambassador number that I spoke to, and we work with them from a 
public safety perspective throughout the year. So there's a 
basis there to be working from, and there's a lot to learn.
    One of the learning experiences from that hurricane season, 
as many of us prepare for a worst case scenario of one Category 
5 storm, what if you have two Category 5 storms? So one of the 
tragedies with respect to Puerto Rico was the aid that was on 
its way had to turn back because there was even another storm 
coming in after the destructive storms that hit that area. So 
we're always there to learn from these events, but we are 
working together in a much better place than we were 5, 6, 7 
years ago.
    Ms. Gonzalez-Colon. My second question will be, and we saw 
that in the happening, we got FEMA and the Federal agencies on 
the island before, during, and after the hurricane. That never 
happened before, so I thought that was better coordination 
before the hurricane could hit us, and better information. 
People knew what was happening because we got the data in time, 
and that's, I think, the most important thing, in terms of that 
forecast, the weather forecast, not just for Puerto Rico and 
the Caribbean, the whole Nation. And, in our case, the system 
that you installed helped us out, not just Puerto Rico, the 
Virgin Islands, and the rest of the small countries in the 
Caribbean that were using, actually, that data when they were 
cutoff from their communications.
    During the last Congress we approved $120 million for 
operations, research, and facilities of those--more than $40 
million for charting, mapping, improved weather forecasting, 
$79 million for procurement and construction, specifically 29 
for repairs in many areas. Before this turn, I ask the 
question, if we need more resources in those areas, if we fall 
short in making those repairs at that time, and if there's 
anything else that Congress can do, and I completely agree with 
Mr. Lucas, and actually I want to thank him for making the 
legislation possible of the Weather Act--more than 25 years 
without having a comprehensive law that can permit--forecasting 
these kind of issues. Is there--anything else that you can 
recommend to us? And thank you, Dr. Jacobs, for your work in 
the agency as well. Dr. Chen?
    Dr. Chen. Yes. If I may add a point to that? So former FEMA 
director Craig Fugate always pointed out that, with all the 
heroic response to emergency, we, you know, are really grateful 
for these, but on the other hand, he will always remind us, we 
got to that situation tells us we haven't prepared ourselves. 
We should try to prevent these things to happen in the first 
place. So this brings me back to this long-term planning, in 
terms of future climate change. With the sea level rises, 
hurricanes are only going to be much more destructive. So how 
do we prepare ourselves for the situation that--avoiding the 
current situation, reacting to each storm the way we are? So 
that is the goal of the national priority, and I think Congress 
can help us do--to take a long-term approach. We don't want to 
put our society in that vulnerable position year after year. 
Thank you.
    Ms. Gonzalez-Colon. Thank you.
    Chairwoman Fletcher. Thank you, Ms. Gonzalez-Colon. I will 
now recognize Mr. Babin for 5 minutes.
    Mr. Babin. All right. Thank you so much, Madam Chair. I'm 
sorry I'm running a little bit late today. And thank you, 
witnesses, for being here. Dr. Jacobs, I'd like to ask you the 
first question. In addition to serving on this Subcommittee, 
I'm the Ranking Member and former Chairman of the Space 
Subcommittee. NASA manages the development and launch of the 
reimbursable satellite programs, projects, and instruments for 
NOAA through the Joint Agency Satellite Division. One of the 
programs they developed is the Joint Polar Satellite System. 
JPSS is an $11 billion investment from taxpayers in our weather 
observation capabilities that protect lives and property. These 
satellites provide the bulk of the observations needed to make 
our medium- and long-range weather forecasting successful. 
Eighty-five to 95--to 90 percent of all data that's used in 
numerical weather prediction models come from polar orbiting 
satellite data.
    One of the most important measurements that JPSS makes is 
microwave sounding. Recent reports indicated that the FCC's 24 
gigahertz auction would effectively jam NOAA's use of that 
spectrum for microwave sounding that serves as the very 
backbone of our weather prediction capabilities that protect 
lives and property. If appropriate protection limits are not 
placed on the use of the spectrum sold at auction by the FCC, 
should NASA and NOAA issue stop work notices to contractors on 
JPSS?
    Dr. Jacobs. Well, we're still in the process of working 
with NOAA, NASA, and the FCC to hopefully reach a solution that 
we can all live with, but with the ATMS instrument on the 
current JPSS, as well as the proposed JPSS 2, 3, and 4, the 
mission requirements are 98 percent data, so if we see a 
projected loss of 2 percent or more, then it's highly likely we 
would issue a stop work order.
    Mr. Babin. OK. And if NASA and NOAA continued to fund the 
development of JPSS that are effectively unusable as a result 
of the FCC auction, could this constitute a misappropriation of 
funds by these agencies?
    Dr. Jacobs. Well, it probably would not be the best use of 
taxpayer money if we were paying for instruments we couldn't 
use.
    Mr. Babin. Right. OK. Thank you very much. And also, again, 
Dr. Jacobs, listening to the testimony from our panel, it seems 
that NOAA has a lot to do in order to take the next step in 
improving weather forecasting. From my vantage point, this 
should be among the agency's very top priorities in the coming 
years. Years ago the Office of Space Commerce and Office of 
Commercial Regulatory Affairs were buried in NOAA. Do you 
support consolidating them, and moving them back to the 
Department of Commerce, where they were originally placed by 
statute, in order to allow NOAA to focus on its core mission?
    Dr. Jacobs. Yes. There's a lot of different bureaus within 
the Department of Commerce that would equally share and be very 
benefited by this being at the DOC level, so yes.
    Mr. Babin. Excellent, thank you. And, Dr. Uccellini, is 
that it? OK. Thank you. As you are aware, the Congress 
appropriated a great deal of additional funding to the National 
Weather Service after Hurricane Sandy. This money was intended 
to help the Weather Service improve its hurricane models for 
future cycles. As a Member representing a district that was hit 
hard, very hard, by Hurricane Harvey, can you explain how this 
additional funding made a difference in forecasting, and what 
should the Congress do to improve severe weather prediction 
capabilities for future hurricane seasons?
    Dr. Uccellini. So, first of all, thank you for the support 
after Sandy. That covered a whole spectrum of activities, 
including numerical modeling for the Hurricane Forecast 
Improvement Program, and an operational computer that allowed 
us the capacity to actually run the model operationally that 
the research community could transition as part of the R2O.
    When it came to Harvey, Harvey was a tricky storm up front, 
when it was developing near the Mexican coast, east of the 
Yucatan Peninsula, but--first of all, the global models 
starting picking up on--that this storm would not only be 
moving toward the northwest, toward Texas, but also 
intensifying, but it was the new hurricane--the--what we call 
the HWRF, the new finer scale hurricane model, that picked up 
that this storm would rapidly intensify as it approached the 
coast. And it was one of these nightmare scenarios that that 
storm actually intensified from a Category 2 to a Category 4 as 
it was approaching the coastline. And we were ready for that, 
and--up to a certain amount. I don't think we quite had the 4, 
but we had that it was intensifying as it approached the coast.
    The reason this was important was that we were co-located--
we were embedded with the emergency management community in 
Corpus Christi, and we were briefing them on when they would be 
able to go out and rescue people, and when they would not, 
because this was not going to be a storm that they wanted to be 
out on the outer islands for. So we actually worked with them, 
and when--between the satellite data--first of all, the model, 
satellite data, and radars, they actually went out during the 
eye, when the eye wall passed over the coast, and went out and 
rescued over 250 people, and brought them back before the back 
wall came in. So, all things mapped out, the modeling component 
of that sequence was actually the benefit of Sandy's 
supplemental funding.
    Mr. Babin. Great. I really appreciate that, and I'll yield 
back my negative amount of time. Thank you very much. Thank 
you.
    Chairwoman Fletcher. Thank you, Mr. Babin, and thank you to 
all of our witnesses for coming today, and hearing us out, and 
answering not one, but two rounds of questions. You have a 
special distinction now in this Committee. But I really 
appreciate the testimony. It was very helpful, and this is a 
critically important issue.
    The record will remain open for 2 weeks for additional 
statements from Members, and for any additional questions from 
the Committee to the witnesses. With that, the witnesses are 
excused, and the hearing is now adjourned.
    [Whereupon, at 4:06 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Hon. Neil Jacobs and Dr. Louis Uccellini

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Shuyi Chen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Christopher Fiebrich

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Rich Sorkin

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record




           Letter submitted by Representative Lizzie Fletcher
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           

                                 <all>
</pre></body></html>
